APPENDIX A
Memorandum Opinion, 9th Circuit Court of Appeals
Molina v. Fox No. 18-15599

Case: 18-15599, 07/09/2020, ID: 11747073, DktEntry: 42-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUL 9 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
HECTOR D. MOLINA,

No.

Petitioner-Appellant,

U.S. COURT OF APPEALS

18-15599

D.C. No. 4:16-cv-00207-JST

v.
MEMORANDUM*

ROBERT W. FOX, Warden,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of California
Jon. S. Tigar, District Judge, Presiding
Submitted June 9, 2020**
San Francisco, California
Before: SMITH and HURWITZ, Circuit Judges, and ROYAL,*** District Judge.
Hector Molina appeals the district court’s denial of his petition for a writ of
habeas corpus, filed pursuant to 28 U.S.C. § 2254, challenging two murder

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable C. Ashley Royal, Senior United States District Judge
for the Middle District of Georgia, sitting by designation.

Case: 18-15599, 07/09/2020, ID: 11747073, DktEntry: 42-1, Page 2 of 3

convictions. We issued a certificate of appealability on the issue of whether the
convictions for the second-degree murder of Lisa Thayer (count eight) and firstdegree murder of Rico McIntosh (count nine), which were committed by Molina’s
co-conspirators while he was in custody, were supported by sufficient evidence.
We have jurisdiction under 28 U.S.C. §§ 1291 and 2253. We review the district
court’s denial of a § 2254 motion de novo, Avena v. Chappell, 932 F.3d 1237,
1247 (9th Cir. 2019), and we affirm.
An applicant is “entitled to habeas corpus relief if it is found that upon the
record evidence adduced at the trial no rational trier of fact could have found proof
of guilt beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 324
(1979). In denying § 2254 habeas relief, the district court appropriately held under
the Antiterrorism and Effective Death Penalty Act that the California Court of
Appeal did not make an unreasonable determination of fact or apply Jackson
unreasonably in sustaining Molina’s murder convictions on counts eight and nine.
See Harrington v. Richter, 562 U.S. 86, 103 (2011).
Considering the evidence in the light most favorable to the state, the
evidence presented at trial was sufficient for the jury to find the essential elements
of the two murder convictions under California conspiracy law beyond a
reasonable doubt. Jackson, 443 U.S. at 324. The jury heard sufficient evidence that
Molina was an active participant in an on-going conspiracy to murder rival gang

2

18-15599

Case: 18-15599, 07/09/2020, ID: 11747073, DktEntry: 42-1, Page 3 of 3

members which continued after he was arrested and from which he never
withdrew. See People v. Vega-Robles, 224 Cal. Rptr. 3d 19, 64-65 (Cal. Ct. App.
2017); see also People v. Smith, 337 P.3d 1159, 1166-67 (Cal. 2014). The jury
convicted Molina of the conspiracy to commit murder and assault (count four). The
evidence sufficiently showed that the murders in counts eight and nine were the
natural and probable consequences of that conspiracy. Molina does not challenge
the conspiracy conviction.
Molina also claims that the first-degree murder of McIntosh was not a
natural or probable consequence of the conspiracy. But, because a target offense
for the unchallenged conspiracy conviction is murder, there is a sufficient
connection between his culpability and the perpetrator’s premeditative state. See
People v. Rivera, 184 Cal. Rptr. 3d 801, 805-06 & n.4 (Cal. Ct. App. 2015).
AFFIRMED.

3

18-15599

APPENDIX B
Order Denying Petition for Rehearing and Rehearing En Banc

Case: 18-15599, 08/26/2020, ID: 11803231, DktEntry: 44, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

HECTOR D. MOLINA,

No.

AUG 26 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-15599

v.

D.C. No. 4:16-cv-00207-JST
Northern District of California,
San Francisco

ROBERT W. FOX, Warden,

ORDER

Petitioner-Appellant,

Respondent-Appellee.

Before: M. SMITH and HURWITZ, Circuit Judges, and ROYAL,* District Judge.
The panel has voted to deny the petition for panel rehearing. Judges M. Smith
and Hurwitz have voted to deny the petition for rehearing en banc, and Judge Royal
so recommends.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App. P.
35.
The petition for panel rehearing and rehearing en banc, Dkt. 43, is DENIED.

*

The Honorable C. Ashley Royal, United States District Judge for the
Middle District of Georgia, sitting by designation.

APPENDIX C
Order Denying Petition for Writ of Habeas Corpus; Denying Certificate of
Appealability
Molina v. Fox, 16-cv-00207 JST

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 1 of 23

1

UNITED STATES DISTRICT COURT

2

NORTHERN DISTRICT OF CALIFORNIA

3
HECTOR D. MOLINA,

4

Petitioner,

5
v.

6

ROBERT W. FOX, Warden,

7

Case No. 16-cv-00207-JST (PR)
ORDER DENYING PETITION FOR
WRIT OF HABEAS CORPUS;
DENYING CERTIFICATE OF
APPEALABILITY

Respondent.

8
9

Before the Court is the above-titled petition for a writ of habeas corpus, filed pursuant to

United States District Court
Northern District of California

10
11

28 U.S.C. § 2254 by petitioner Hector D. Molina, challenging the validity of a judgment obtained

12

against him in state court. Respondent has filed an answer to the petition, and petitioner has filed

13

a traverse.1 For the reasons set forth below, the petition is denied.

14

I.

PROCEDURAL HISTORY

15

On June 28, 2012, a Contra Costa County jury convicted petitioner of three counts of first-

16

degree murder, one count of second-degree murder, two counts of attempted murder, one count of

17

conspiracy to commit murder and assault with a deadly weapon, and one count of active

18

participation in a criminal street gang. With respect to one of the first-degree murder counts and

19

both attempted murder counts, the jury found that petitioner personally used and discharged a

20

firearm and caused great bodily injury. The jury also found that petitioner committed all

21

convicted counts, other than the active-participation count, for the benefit of, at the direction of,

22

and in association with a criminal street gang. Ex. 1, Clerk’s Tr. (CT), Vol. 7, 1653-59; id. at Vol.

23

9, 2034-52.2 On September 7, 2012, the trial court sentenced petitioner to 169 years and 4 months

24
25
26
27
28

1

Petitioner previously named William Muniz, warden of Salinas Valley State Prison, as the
respondent in this action. Pursuant to Rule 25(d) of the Federal Rules of Civil Procedure, Robert
W. Fox, the current warden of California Medical Facility, where petitioner is currently
incarcerated, is hereby SUBSTITUTED as respondent in place of petitioner's prior custodian.
2
All references herein to exhibits are to the exhibits submitted by respondent in support of the
answer, unless otherwise indicated.

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 2 of 23

1

consecutive to a term of life without the possibility of parole. Id. at 2063-64, 2067-70.
On June 6, 2014, the California Court of Appeal affirmed the judgment of conviction. Ex.

United States District Court
Northern District of California

2
3

7. On August 27, 2014, the California Supreme Court denied review. Ex. 9. Petitioner filed

4

unsuccessful habeas petitions in the state superior, appellate, and supreme courts. Exs. 11, 12.

5

On January 12, 2016, petitioner filed a timely petition for writ of habeas corpus in this

6

Court. On April 5, 2016, the Court found that the petition stated three cognizable claims for relief

7

and ordered respondent to show cause why the petition should not be granted. Respondent filed

8

an answer. Petitioner filed a traverse as well as a first amended petition (“FAP”). On November

9

2, 2016, the Court screened the FAP, which asserted the three claims in the original petition as

10

well as three new claims. The Court dismissed one of the new claims as stating only a violation of

11

state law and ordered respondent to show cause as to the remaining two new claims.
On January 31, 2017, respondent filed a motion to dismiss the two new claims as

12
13

procedurally defaulted. On July 17, 2017, the Court granted the motion to dismiss. On August 7,

14

2017, the Court reinstated the answer and traverse addressing the three claims asserted in the

15

original petition.

16

II.

The following summary describing the crime and evidence presented at trial is from the

17
18

STATEMENT OF FACTS

opinion of the California Court of Appeal:3
According to the prosecution’s gang expert witness and former gang members, by
2007, the VFL and ML Sureño gangs4 were encountering hard times. Gang
members were breaking the prohibition on killing other members, and successive
leaders were forced to leave the country. Following an informal amalgamation,
VFL and ML members sought to boost their waning prestige with a strategy of
killing rival Norteño gang members. Defendant was a member of VFL and one of
the members hunting down Norteños.

19
20
21
22
23
24
25
26
27
28

3

The Court has independently reviewed the record as required by AEDPA. Nasby v. McDaniel,
853 F.3d 1049, 1055 (9th Cir. 2017). Based on the Court’s independent review, the Court finds
that it can reasonably conclude that the state court’s summary of facts is supported by the record
and that this summary is therefore entitled to a presumption of correctness, unless otherwise
indicated in this order. Hernandez v. Small, 282 F.3d 1132, 1135 n.1 (9th Cir. 2002); 28 U.S.C. §
2254(e)(1).
4
“VFL” stands for “Varrio Frontero Loco,” People v. Elizalde, 61 Cal. 4th 523, 528 (2015), and
“ML” stands for “Mexican Loco,” In re I.M., 125 Cal. App. 4th 1195, 1201 (2005).
2

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 3 of 23

Defendant went hunting on the night of December 22, 2007. Defendant was one of
a number of Sureños who hid behind a fence until some Norteños came into view
and then opened fire. Defendant killed Antonio Cintron (count one) and attempted
to kill Adrian Espinoza (count two) and Neil Wixon (count three). Defendant was
also convicted of conspiring to kill (count four) and engaging in gang activity
(count five).

1
2
3
4

On February 16, 2008, defendant was driving one of . . . two vehicles full of
Sureños. When a suspected Norteño was found, defendant told the others to “get
that motherfucker.” Other gang members got out and killed Luis Perez (count
seven).

5
6
7

Defendant was arrested on February 27, 2008, and was never thereafter out of
custody. While in custody, defendant had a number of telephone calls with his
mother and the then VFL leader. The calls were recorded. During the
conversation, defendant made a number of statements that could be construed as
confessing to murder. Defendant also made a number of incriminating
statements—including that he had shot Antonio Cintron—to a VFL member who
had agreed to become a police informant. The informant also testified that two
other gang members identified defendant as Cintron’s murderer.

8
9
10

United States District Court
Northern District of California

11
12

February 27 was also the day on which homeless bystander Lisa Thayer was killed
(count eight) when she was caught between Sureños firing at the occupants of a
passing car.

13
14
15

On April 26, 2008, Rico McIntosh was shot on the streets of San Pablo. Before he
died of his wounds (count nine), McIntosh told police that he had been shot by the
Hispanic male occupants of a vehicle. McIntosh was killed by VFL members in
the mistaken belief he was a Norteño.

16
17

Defendant did not testify in his own behalf. The only witnesses called for the
defense were: (1) Adrian Espinoza, who testified that he was unable to identify
who shot him; (2) a private investigator, who testified that Espinoza gave him a
version of the shooting that differed from his trial testimony; and (3) Dr. Carol
Walser, who testified to defendant’s low I.Q. and lifelong impaired cognitive
functions which placed him “at the mental retardation level.”

18
19
20
21
22
23
24
25
26
27

People v. Molina, No. A136914, 2014 WL 2553335, at *1-2 (Cal. Ct. App. June 6, 2014).
III.

DISCUSSION
A.

Standard of Review

A petition for a writ of habeas corpus is governed by the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPAˮ). This Court may entertain a petition for a writ of habeas corpus
“in behalf of a person in custody pursuant to the judgment of a State court only on the ground that

28
3

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 4 of 23

1

he is in custody in violation of the Constitution or laws or treaties of the United States.ˮ 28 U.S.C.

2

§ 2254(a).

United States District Court
Northern District of California

3

A district court may not grant a petition challenging a state conviction or sentence on the

4

basis of a claim that was reviewed on the merits in state court unless the state courts’ adjudication

5

of the claim: “(1) resulted in a decision that was contrary to, or involved an unreasonable

6

application of, clearly established Federal law, as determined by the Supreme Court of the United

7

States; or (2) resulted in a decision that was based on an unreasonable determination of the facts in

8

light of the evidence presented in the State court proceeding.ˮ 28 U.S.C. § 2254(d); Williams v.

9

Taylor, 529 U.S. 362, 412-13 (2000). Additionally, habeas relief is warranted only if the

10

constitutional error at issue “‘had substantial and injurious effect or influence in determining the

11

jury’s verdict.’” Penry v. Johnson, 532 U.S. 782, 795 (2001) (quoting Brecht v. Abrahamson, 507

12

U.S. 619, 637 (1993)).

13

A state court decision is “contrary to” clearly established Supreme Court precedent if it

14

“applies a rule that contradicts the governing law set forth in [the Supreme Court’s] cases,” or if it

15

“confronts a set of facts that are materially indistinguishable from a decision of [the Supreme]

16

Court and nevertheless arrives at a result different from [its] precedent.” Williams, 529 U.S. at

17

405-06. “Under the ‘unreasonable application’ clause, a federal habeas court may grant the writ if

18

the state court identifies the correct governing legal principle from [the Supreme] Court’s

19

decisions but unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 413.

20

“[A] federal habeas court may not issue the writ simply because that court concludes in its

21

independent judgment that the relevant state-court decision applied clearly established federal law

22

erroneously or incorrectly. Rather, that application must also be unreasonable.” Id. at 411.

23

Section 2254(d)(1) restricts the source of clearly established law to the Supreme Court’s

24

jurisprudence. “[C]learly established Federal law, as determined by the Supreme Court of the

25

United States” refers to “the holdings, as opposed to the dicta, of [the Supreme] Court’s decisions

26

as of the time of the relevant state-court decision.” Williams, 529 U.S. at 412. “A federal court

27

may not overrule a state court for simply holding a view different from its own, when the

28
4

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 5 of 23

1

precedent from [the Supreme Court] is, at best, ambiguous.” Mitchell v. Esparza, 540 U.S. 12, 17

2

(2003).
Here, as noted, the California Supreme Court summarily denied petitioner's petition for

United States District Court
Northern District of California

3
4

review. The court of appeal, in its opinion on direct review, addressed the claims petitioner raises

5

in the instant petition. The court of appeal thus was the highest court to have reviewed the claims

6

in a reasoned decision, and it is the court of appeal’s decision that this Court reviews herein. See

7

Ylst v. Nunnemaker, 501 U.S. 797, 803-04 (1991); Barker v. Fleming, 423 F.3d 1085, 1091-92

8

(9th Cir. 2005).5

9

B.

Petitioner’s Claims

10

Petitioner asserts the following grounds for relief: (1) the trial court erroneously found

11

petitioner competent to stand trial; (2) the evidence was insufficient to sustain two of the four

12

murder convictions; and (3) the trial court improperly excluded certain testimony from petitioner’s

13

mother. The Court addresses these claims in turn.
1.

14

Competence to Stand Trial

Petitioner claims that “[t]he trial court’s finding that petitioner was mentally competent to

15
16

stand trial, violated petitioner’s 6th and 14th Amend Right.” ECF No. 1 at 5. The California

17

Court of Appeal summarized and rejected this claim as follows:
State and federal constitutional law require a defendant to understand the
proceedings against him and to be able to assist in his defense. (People v. Elliott
(2012) 53 Cal.4th 535, 582-583; Godinez v. Moran (1993) 509 U.S. 389, 396.)
“Under California law, a person is incompetent to stand trial ‘if, as a result of
mental disorder or developmental disability, the defendant is unable to understand
the nature of the criminal proceedings or to assist counsel in the conduct of a
defense in a rational manner.’” (People v. Young (2005) 34 Cal.4th 1149, 1216,
quoting Pen. Code, § 1367, subd. (a); accord, People v. Rogers (2006) 39 Cal.4th
826, 846-847.) A defendant is incompetent to stand trial if he or she lacks a
sufficient present ability to consult with his lawyer with a reasonable degree of
rational understanding, and a rational as well as a factual understanding of the
proceedings against him. (Drope v. Missouri (1975) 420 U.S. 162, 171; Dusky v.
United States (1960) 362 U.S. 402.)

18
19
20
21
22
23
24
25

A defendant is presumed competent unless by a preponderance of the evidence he
proves that he is not competent. (Pen. Code, § 1369, subd. (f); People v. Lawley

26
27
28

5

The claims petitioner raised on state habeas are not at issue in the instant petition.
5

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 6 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(2002) 27 Cal.4th 102, 131.) An appellate court conducts a deferential standard of
review to determine whether substantial evidence supports the trial court’s finding.
(People v. Dunkle (2005) 36 Cal.4th 861, 885; People v. Marshall (1997) 15
Cal.4th 1, 31.)
Here, at the conclusion of a three-day evidentiary hearing, the trial court ruled that
defendant was competent to stand trial. The ruling is thoughtful indeed; it takes up
11 pages in the reporter’s transcript and appears to have been prepared in advance
and read into the record. Extensive excerpts deserve quotation:
“Defendant’s claim of incompetency rests almost exclusively on the testimony of
Dr. Patricia Spivey . . . . She testified that it was her opinion that the defendant is
unable to understand the nature of the proceedings, that is, unable to understand
what a trial is all about. She further opined that he suffers from an ongoing and
long-term learning disability, which probably accounts for this inability on his part
to understand. [¶] Her opinion with regard to defendant having a learning disability
of some sort appears to me to be well-supported. [¶] In my opinion these mental
deficits which appear to have existed from youth probably qualify him as
developmentally disabled as that term is used in Penal Code 1367 and 1370.1.
[¶] . . . [¶]
“The real issue in this case . . . is not whether . . . Mr. Molina is developmentally
disabled or mentally disordered. The real question that I'm facing is whether as a
result of whatever mental deficits he has, he is rendered unable to understand
what's going on in trial. That’s really the key thing that I’ve been called upon to
decide in this matter. [¶] Dr. Spivey admitted that her opinion that defendant’s
mental deficits would keep him from being able to understand what’s going on in
trial is based primarily on the results of a CAST . . . more particularly, on the
results of that portion of the test which is designed to determine whether . . . the
person taking the test knows the roles of various participants in trial . . . .
“The defendant scored poorly on the test. For a number of reasons, however, I
seriously question the reliance that Dr. Spivey placed on the results of this text. For
one thing, the test assumes there is only one correct answer to each of the test
questions . . . . [¶] . . . [¶] . . . Then too, absent evidence of malingering, the test
accepts as true any ‘I don't know’ response that may be given to any question. [¶]
But just because a person says he or she doesn’t know does not necessarily mean
that is, in fact, the case. There is evidence, for example, that the defendant . . .
sometimes says that he doesn’t know something when, in fact, he does.”
“Additionally, his . . . ‘I don't know’ responses to such questions as: What does a
judge do, what does a prosecutor do, et cetera, should not have been accepted at
face value, . . . given the fact that only a couple of months earlier defendant gave
responses on tests administered by Mr. Juan Velasquez . . . demonstrating that he,
in fact, knew very well the role of such individuals. Dr. Spivey explains this
disparity . . . as being the function of defendant’s retention limitations. [¶] This
explanation is not . . . satisfactory. It’s hard to believe that a person such as
defendant, who knew as far back as 2008 and as recently as August 2011 that a
witness was a person who saw the crime would no longer be able to remember this
6

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 7 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

two months later in November of 2011 and think instead that a witness was a
member of the jury. [¶] As Dr. Solomon pointed out, a person with so great a
retention limitation as this would be expected to manifest all manner of other
difficulties which, in fact, were not exhibited by defendant. [¶]. . . [¶]
“Above my reservations about the value of the CAST–MR results in this case and
the negative opinion this has on the weight I am prepared to give Dr. Spivey’s
opinion testimony, there is the matter of other evidence presented in this case. I'm
referring primarily to the video interview conducted of the defendant by the police
in 2008 and the . . . phone conversations defendant had with his mother and others
shortly thereafter while he was in jail, and also to some extent the more recent
observations of the defendant made by his jailers. [¶] I find this other evidence
very revealing as to whether defendant would be able to understand what goes on at
a trial and . . . assist his counsel in providing a defense at such trial.
“First of all, I call your attention to the very early portion of that interview where
the defendant not only states expressly that he understands his Miranda rights, that
is his right to remain silent, . . . the fact that anything he says might be used against
him, his right to an attorney and the right to have an attorney appointed free of
charge. Not only does the defendant expressly say that he understands this matter,
but he demonstrated this. He demonstrated the fact he understood these rights, or
at least the right to remain silent, by identifying it as one of the Miranda rights even
before the police told him what the Miranda rights consist of.
“Additionally, . . . he actually invoked his right to remain silent towards the end of
the interview when it became clear . . . to him that the police were not buying his
story. Such a person would clearly understand his right not to be compelled to
testify at trial and would appreciate the circumstances when such right should be
exercised . . . .
“Now turning to the interview of [sic] a whole . . . [¶]. . . [D]uring the course of the
interview it’s clear that Mr. Molina understood that the police were, in effect,
accusing him or charging him of the murder. He clearly understood the
consequences of those charges. That is, if they were established, that he would go
to prison for life. [¶] And most importantly he formulated a defense to those
charges . . . [¶]. . . In fact, formulated might be too soft a word, fabricated a
defense. As we later learned during the course of his conversation with his
mother, . . . he effectively admitted that he had committed the crime. But with the
police, not only did he deny committing the crime, he gives an explanation of why
he couldn’t have done the crime, to wit, he wasn’t there.”
“Significantly, he also understood that . . . the burden was . . . in this regard . . . on
the People to prove that he was guilty. They kept on inviting him to prove his
innocence, to prove that he wasn’t there . . . . And he kept on telling them, no, you
have to prove that I was there . . . . [¶] Additionally . . ., he demonstrated during
the course of this interview . . . that he was able to evaluate the worth of the police
evidence” and “to suggest line of attacking that evidence.”
Moreover, “defendant did not allow himself to be tricked by the police [into]
7

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 8 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

implicating himself, nor did he buckle under . . . their strong and persistent
pressure. [¶] If we were dealing with a feeble-minded person who didn’t
understand what was going on, one would expect that he would succumb to these
ploys of the police. Not at all. He knew exactly [what] they were saying and
formulated a defense to it and stuck to his guns throughout the entire [interview].”
“During the interview he gave every appearance of being very attentive and very
comprehending . . . . [¶] . . . [T]his video of the interview shows that the defendant
clearly understood what was going on . . . . He was very understanding of the
situation he was in.”
“I’ll also note some highlights that I think are telling from the phone calls that he
had with his mother and others from the jail . . . . [D]uring the course of those
phone calls . . . he was giving instructions on how someone is to find a phone
number on his cell phone directing . . . how you pull that information out of the cell
phone. At another point he indicated that he realized his taxes had to be filed,
important things like this to be done. And he gave directions that someone should
do that.
“Another point: He talked about how his car should be sold so money could be
raised to provide him with food and other items while he was in jail . . . [A]nother
aspect which I found very telling was that he explained that someone had to see a
traffic judge. Appears he had received a ticket and explained that he was in jail, so
he wouldn’t get in greater trouble for [not] paying the ticket.
“Additionally, he made arrangements with one of his . . . fellow gang members . . .
to take care of his mother. And then, more recently he was observed . . . by the
jailers, by various guards at the detention facility, processing requests not only on
his own behalf but on behalf of other inmates . . . which appears that . . . other
cellmates were relying on him to do this on [their] behalf.
“Look, I do not believe that it takes a rocket scientist to understand what goes on
a[t] trial and to be able to assist counsel in such a proceeding. And I do not believe
that the due process requirements of the United States and California Constitutions
require any greater understanding of what takes place at a trial than the defendant
demonstrated that he is capable of in the interview he had with . . . police, his jail
phone conversations with his family and his conduct in jail.
“I do not believe that it has been established by a preponderance of the evidence
that he is incompetent and maybe more importantly I am satisfied that the evidence
I’ve alluded to . . . indicates quite convincingly that although he may be slow and
although he may have limitations that may be characterized as mental deficits, that
these do not keep him from being able to understand what takes place at a trial or
keep him in any way from being able to assist his counsel.
“Accordingly, I find him competent to stand trial pursuant to Penal Code section
1367 and also under the due process clauses of both the United States and the
California Constitutions.”
Defendant contends that ruling lacks the support of substantial evidence. “In
8

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 9 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

reviewing a jury verdict that a defendant is mentally competent to stand trial, an
appellate court must view the record in the light most favorable to the verdict and
uphold the verdict if supported by substantial evidence.” (People v. Marshall,
supra, 15 Cal.4th 1, 31.) “In applying the test, we review the evidence in the light
most favorable to the prosecution and presume in support of the judgment the
existence of every fact the [trier of fact] could reasonably have deduced from the
evidence. [Citation.] ‘Conflicts and even testimony [that] is subject to justifiable
suspicion do not justify the reversal of a judgment, for it is the exclusive province
of the trial judge . . . to determine the credibility of a witness and the truth or falsity
of the facts upon which a determination depends . . . .’ [Citation.] A reversal for
insufficient evidence ‘is unwarranted unless it appears “that upon no hypothesis
whatever is there sufficient substantial evidence to support”‘ the [trier of fact’s
decision.] [Citation.] [¶] The same standard governs in cases where the
prosecution relies primarily on circumstantial evidence. [Citation.]” (People v.
Zamudio (2008) 43 Cal.4th 327, 357.) “On appeal a finding of competency to stand
trial ‘cannot be disturbed if there is any substantial and credible evidence in the
record to support the finding.’” (People v. Hightower (1996) 41 Cal.App.4th 1108,
1111.)
The court heard the testimony of eight witnesses, including one mental health
professional for each side, and considered numerous exhibits. There is no need to
summarize the totality of the evidence, because it is readily apparent that there is
ample substantial evidence supporting the trial court’s determination that defendant
was competent to stand trial.
It is certainly true that the defense psychologist, Dr. Patricia Spivey, was firmly of
the opinion that defendant was not competent to stand trial. But the prosecution’s
psychiatrist, Dr. Randall Solomon, was just as adamant that defendant was
competent. That should be, and is, the end of the matter, for it is a settled principle
that a single witness, if deemed credible by the trier of fact, is substantial evidence.
(Evid. Code, § 411; People v. Cudjo (1993) 6 Cal.4th 585, 608-609; see People v.
Leonard (2007) 40 Cal.4th 1370, 1391-1393 [report and testimony of one expert
witness constitute substantial evidence].)
Yet defendant argues that “the evidence of incompetency presented by the defense
[i.e. Dr. Spivey’s testimony] was substantial,” indeed, “compelling,” while “the
evidence of competency presented by the prosecution and relied on by the court
was insubstantial.” But it was defendant who was carrying the burdens of
persuasion and proof to rebut the presumption that he was competent. (People v.
Ary (2011) 51 Cal.4th 510, 517-518; People v. Marks (2003) 31 Cal.4th 197, 215.)
Whether evidence is compelling is in the eye of the trier of fact, which in this case
means we must accept that it was not Dr. Spivey. The trial court’s detailed
comments (“I seriously question,” “This explanation is not ... satisfactory,” “my
reservations”, “the negative opinion this has on the weight I am prepared to give
Dr. Spivey’s opinion”) leave no room for doubt on this point. Moreover, the court
made it clear that the “other evidence” was “very revealing as to whether defendant
would be able to understand what goes on at a trial and ... assist his counsel in
providing a defense at such trial.”
9

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 10 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Defendant implicitly treats Dr. Spivey’s more recent examination as being
inherently more credible than Dr. Solomon’s “outdated” evidence, but he provides
no authority for such a conclusion. The freshness or staleness of an examination
would appear to be merely one factor going only to the weight of the opinion it
supports. (See People v. Valencia (2008) 43 Cal.4th 268, 295; People v. Boyer
(2006) 38 Cal.4th 412, 480-481; cf. People v. Cobb (2010) 48 Cal.4th 243, 252 [“A
defendant’s condition a year earlier is relevant but not dispositive” to issue of
whether he qualifies as mentally disordered offender]; People v. Dunkle, supra, 36
Cal.4th 861, 889-890 [jury could consider the timing and amount of time experts
spent interviewing defendant].) And the weight to be given to testimony is a matter
conclusively entrusted to the trier of fact. (People v. Lindberg (2008) 45 Cal.4th 1,
27; see People v. Guerra (2006) 37 Cal.4th 1067, 1129.)
Defendant’s expert exclusive approach would seem to deny utility to the mass of
nonexpert, circumstantial evidence cited by the trial court. (Cf. People v. Rogers,
supra, 39 Cal.4th 826, 847 [“Evidence of incompetency may emanate from several
sources, including the defendant’s demeanor, irrational behavior, and prior mental
evaluations.”]; People v. Ramos (2004) 34 Cal.4th 494, 507 [“Substantial evidence
of incompetence may arise from separate sources”].) The testimony of lay persons
might not be as weighty as the opinion of mental health professionals, but it is not
to be dismissed as worthless. The testimony of law enforcement personnel and
jailers who had personal experience with the defendant would seem to have a
particular insight into certain aspects of defendant’s ability to deal with, and to
interact with, the workings of the legal system. Indeed, the trial court found it
“very revealing” on the issues of defendant’s competency. Moreover, this precise
category of evidence was considered and implicitly treated as relevant by our
Supreme Court in People v. Dunkle, supra, 36 Cal.4th 861, 888-889. Finally,
although it does not appear to be directly involved here, the judicial officer’s
personal observations of the defendant may be consulted in determinations of
competency. (See People v. Lewis (2008) 43 Cal.4th 415, 525; People v.
Danielson (1992) 3 Cal.4th 691, 727.)
“A defendant is deemed competent to stand trial . . . if he ‘“has sufficient present
ability to consult with his lawyer with a reasonable degree of rational
understanding”’ and ‘“has a rational as well as factual understanding of the
proceedings against him.”’” (People v. Ary, supra, 51 Cal.4th 510, 517.) Our
review of the record, conducted along the lines of the trial court’s ruling,
establishes that that ruling has the support of ample, if not abundant, substantial
evidence. (Evid. Code, § 411; People v. Zamudio, supra, 43 Cal.4th 327, 357;
People v. Hightower, supra, 41 Cal.App.4th 1108, 1111.)
People v. Molina, 2014 WL 2553335, at *2-7 (alterations and omissions in original).
A criminal defendant may not be tried unless he is competent. Godinez v. Moran, 509

26

U.S. 389, 396 (1993); Sully v. Ayers, 725 F.3d 1057, 1070 (9th Cir. 2013). The conviction of a

27

defendant while legally incompetent violates due process. Cacoperdo v. Demosthenes, 37 F.3d

28

504, 510 (9th Cir. 1994). The test for competence to stand trial is whether the defendant
10

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 11 of 23

1

demonstrates the ability “to consult with his lawyer with a reasonable degree of rational

2

understanding” and a “rational as well as factual understanding of the proceedings against him.”

3

Godinez, 509 U.S. at 396; Sully, 725 F.3d at 1070; Douglas v. Woodford, 316 F.3d 1079, 1094

4

(9th Cir. 2003). The question “is not whether mental illness substantially affects a decision, but

5

whether a mental disease, disorder or defect substantially affects the prisoner’s capacity to

6

appreciate his options and make a rational choice.” Dennis v. Budge, 378 F.3d 880, 890 (9th Cir.

7

2004). These rights derive from the Fourteenth Amendment’s guarantee of due process, not the

8

Sixth Amendment. Ryan v. Gonzales, 568 U.S. 57, 65 (2013). Petitioner offers no theory under

9

clearly established law for asserting that the competency proceedings violated the Sixth

10

United States District Court
Northern District of California

11

Amendment.
Based on a review of the record, and applying these legal principles to petitioner’s current

12

allegations, the state court’s rejection of this claim was not contrary to, and did not involve an

13

unreasonable application of, Supreme Court precedent, and was not based on an unreasonable

14

determination of the facts in light of the evidence presented in the state court proceeding. 28

15

U.S.C. § 2254(d).

16

Accordingly, petitioner is not entitled to habeas relief on this claim.
2.

17

Sufficiency of the Evidence

18

Petitioner claims there was insufficient evidence to sustain two of the four murder

19

convictions. ECF No. 1 at 5. The California Court of Appeal summarized and rejected this claim

20

as follows:

21
22
23
24
25
26
27
28

Under this caption in his brief, “two of appellant’s four convictions of murder must
be reversed because the evidence fails to show that appellant perpetrated, aided and
abetted, or conspired to commit them,” defendant argues: “Appellant was tried and
convicted of murder in counts one, seven, eight, and nine. The prosecution
presented evidence to show that appellant fired the shots that killed Antonio
Cintron in count one and evidence to show that appellant drove the getaway car
from the shooting that killed Luis Perez in count seven. However, the prosecution
presented no evidence to show that appellant had any responsibility for the
shooting deaths of Lisa Thayer in count eight or Rico McIntosh in count nine.”
It is significant that defendant does not challenge his conviction for conspiracy
(count four), because it is that peculiar creature, the law of conspiracy, which
defeats defendant’s attempt to overturn the two murder convictions. Defendant, on
11

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 12 of 23

2

the other hand, has only naked logic on this side. After all, he maintains: “I was in
the county jail, I did not provide the gun(s) or any other instrumentality used in the
murders, and I gave no direct orders for the murders.”

3

The law on this issue may continue to be controversial, but it is settled.

4

“Since conspiracy is a continuing offense [citation], a defendant who has joined a
conspiracy continues to violate the law ‘through every moment of [the
conspiracy’s] existence,’ [citation], and he becomes responsible for the acts of his
co-conspirators in pursuit of their common plot.” (Smith v. United States (2013)
568 U.S. ––––, –––– [133 S.Ct. 714, 719].) This court made the same point three
decades ago: “Once the conspiracy is established it is not necessary to prove that
each conspirator personally participated in each . . . [act of the conspiracy] . . .
since members of the conspiracy are bound by all acts of all members committed in
furtherance of the conspiracy.” (People v. Cooks (1983) 141 Cal.App.3d 224, 312;
see People v. Kauffman (1907) 152 Cal. 331, 334 [“‘In contemplation of law the act
of one is the act of all. Each is responsible for everything done by his
confederates’”].)

1

5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

We continued: “The crime of conspiracy can be committed whether the
conspirators fully comprehended its scope, whether they acted together or in
separate groups, or whether they used the same or different means known or
unknown to them.” (People v. Cooks, supra, 141 Cal.App.3d 224, 312.) One of
the authorities cited for this principle was our decision in People v. Means (1960)
179 Cal.App.2d 72, 80, where we stated: “[T]here need be no showing of direct
association between members of a conspiracy. Common design is the essence of a
conspiracy and the crime can be committed whether the parties comprehend its
entire scope, or whether they act in separate groups or together, by the same or
different means known or unknown to them, if their actions are consistently leading
to the same unlawful result . . . .”
And, strikingly applicable here, we further stated in 1983: “Once the defendant’s
participation in the conspiracy is shown, it will be presumed to continue unless he
is able to prove, as a matter of defense, that he effectively withdrew from the
conspiracy. [Citation.] [¶] Although a defendant’s arrest and incarceration may
terminate his participation in an alleged conspiracy, his arrest does not terminate, or
constitute a withdrawal from the conspiracy as a matter of law. [Citations.]
Withdrawal from, or termination of, a conspiracy is a question of fact.” (People v.
Cooks, supra, 141 Cal.App.3d 224, 316.)
“‘Each member of the conspiracy is liable for the acts of any of the others in
carrying out the common purpose, i.e., all acts within the reasonable and probable
consequences of the common unlawful design.’“ (People v. Flores (2005) 129
Cal.App.4th 174, 182, quoting what is now 1 Witkin & Epstein, Cal. Criminal Law
(4th ed. 2012) Elements, § 98, p. 404.) And, in the classic formulation by our
Supreme Court: “whether or not the act committed was the ordinary and probable
effect of the common design or whether it was a fresh and independent product of
the mind of one of the conspirators, outside of, or foreign to, the common design, is
a question of fact for the jury [citations], and if there be any evidence to support the
12

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 13 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

finding of the jury on this question, its determination is conclusive.” (People v.
Kauffman, supra, 152 Cal. 331, 335.) This is part of the jury’s power “considering
the unique circumstances and the nature and purpose of the conspiracy of each
case—to determine precisely when the conspiracy has ended.” (People v. Saling
(1972) 7 Cal.3d 844, 852.)
From these authorities it should be clear that defendant’s incarceration and lack of
direct communication to the killers of Thayer and McIntosh is not legally
dispositive. Neither his actual presence nor his direct participation was required for
liability. Defendant does not dispute his membership in a criminal street gang. He
does not dispute the existence of the conspiracy, or that he was properly convicted
of that substantive offense. He does not contend he ever withdrew from that
conspiracy. He is thus liable for the Thayer and McIntosh murders committed after
his incarceration, if they can be deemed the “ordinary and probable effect[s]”
(People v. Kauffman, supra, 152 Cal. 331, 335), the “‘reasonable and probable
consequences’“ (People v. Flores, supra, 129 Cal.App.4th 174, 182) of the
conspiracy.
This is where defendant makes his stand: he argues that he cannot be convicted of
the Thayer and McIntosh killings because, adopting another Supreme Court
phrasing, “those two killings were not the natural and probable consequences of
any conspiracy [see People v. Prieto (2003) 30 Cal.4th 226, 250] entered into by
appellant . . . . [N]othing about appellant’s expressed intention suggested that
appellant and other gang members conspired that they would aggressively hunt for
Norteños and anyone who resembled Norteños and kill them at every opportunity
for an indefinite period of time into the future . . . . No evidence was presented to
show that appellant aided, facilitated, or encouraged either of the killings in counts
eight and nine. It would be unreasonable to expand conspiracy theory liability to
cover murders committed after a conspirator is in custody when there is no clear
link between the conspirator and the killing. Thus the shooting deaths of Thayer
and McIntosh could not be the natural and probable consequences of any
conspiracy involving appellant.” We do not agree.
Insofar as defendant is relying on his status as a prisoner in the county jail, it has
been shown that the fact of his incarceration does not terminate his potential
criminal liability as a matter of law. In any event, it would be inaccurate to picture
defendant as sitting silently in his cell, with no contact with his VFL colleagues.
The jury heard evidence of recorded phone conversations that defendant made to
the gang’s current leader. The leader promised to send money to defendant while
he was in jail, and to take care of defendant’s mother. The leader also provided
information of the latest developments concerning other gang members, and gave
defendant messages to pass on to other gang members in the jail. Most crucially, he
gave orders to defendant and made it clear defendant was still under gang
discipline. The jury also heard testimony from a jail guard that defendant appeared
to be associating and socializing with the other Sureños inmates. From this
evidence the jury could conclude that defendant never withdrew from the
conspiracy but remained an active part of it.
Defendant’s emphasis on the lack of a “clear link” between himself in jail and other
13

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 14 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

gang members is also misplaced, for it erroneously assumes that a direct connection
and correlation is required. (People v. Means, supra, 179 Cal.App.2d 72, 80.) It is
also contrary to the presumption that defendant remained a member of the
conspiracy. (People v. Cooks, supra, 141 Cal.App.3d 224, 316.)
Defendant’s assumption is also at odds with the nature of conspiracies. “‘[I]t was
not necessary for the State to prove that the parties actually came together, mutually
discussed their common design, and after reaching a formal agreement set out upon
their previously agreed course of conduct.’“ (Lorenson v. Superior Court (1950)
35 Cal.2d 49, 57.) “It is seldom possible for the prosecution to offer direct
evidence of an agreement to commit a crime. The agreement to commit the crime
is usually made in secrecy. The conspiracy must be inferred by the trier of fact
from all the circumstances” (People v. Chavez (1962) 208 Cal.App.2d 248, 253),
which here would include the “common gang membership . . . ‘the conduct [of the
conspirators] in mutually carrying out a common illegal purpose, the nature of the
act, the relationship of the parties [and] the interests of the alleged
conspirators . . . .’” (People v. Superior Court (Quinteros) (1993) 13 Cal.App.4th
12, 20-21.)
The jury heard more than ample evidence that the VFL and ML Sureño gangs had a
systematic practice of hunting down and trying to kill rival Norteño gang members
and suspected members. The killings were accomplished in the same manner—on
the streets, using handguns. Defendant participated in that campaign of killing
before he was arrested. Thus, the jury had a basis for treating subsequent Norteño
killings as the natural and probable consequences of the conspiracy, and for treating
defendant, even after he was incarcerated, as still a member of the on-going
conspiracy. (People v. Zamudio, supra, 43 Cal.4th 327, 357; People v. Kauffman,
supra, 152 Cal. 331, 335; People v. Flores, supra, 129 Cal.App.4th 174, 182;
People v. Cooks, supra, 141 Cal.App.3d 224, 316.)
People v. Molina, 2014 WL 2553335, at *11-14 (footnote omitted).
The Due Process Clause “protects the accused against conviction except upon proof
beyond a reasonable doubt of every fact necessary to constitute the crime with which he is
charged.” In re Winship, 397 U.S. 358, 364 (1970). A court reviewing a conviction does not
determine whether it is satisfied that the evidence established guilt beyond a reasonable doubt, but
rather determines whether, “after viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the essential elements of the crime beyond
a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979). Only if no rational trier of
fact could have found proof of guilt beyond a reasonable doubt may a court conclude that the
evidence is insufficient. See id. at 324. The “prosecution need not affirmatively ‘rule out every
hypothesis except that of guilt,’” and the reviewing federal court “‘faced with a record of historical
14

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 15 of 23

1

facts that supports conflicting inferences must presume—even if it does not affirmatively appear

2

in the record—that the trier of fact resolved any such conflicts in favor of the prosecution, and

3

must defer to that resolution.’” Wright v. West, 505 U.S. 277, 296-97 (1992) (quoting Jackson,

4

443 U.S. at 326).

5
6

with an additional layer of deference. Juan H. v. Allen, 408 F.3d 1262, 1274 (9th Cir. 2005).

7

Generally, a federal habeas court must ask whether the operative state court decision reflected an

8

unreasonable application of Jackson and Winship to the facts of the case. Id. at 1275.

9

United States District Court
Northern District of California

After the enactment of AEDPA, a federal habeas court must apply the standards of Jackson

“Jackson leaves juries broad discretion in deciding what inferences to draw from the

10

evidence presented at trial, requiring only that jurors ‘draw reasonable inferences from basic facts

11

to ultimate facts.’” Coleman v. Johnson, 566 U.S. 650, 655 (2012) (per curiam) (citing Jackson,

12

443 U.S. at 319). “[O]n habeas review, a federal court may not overturn a state court decision

13

rejecting a sufficiency of the evidence challenge” unless “the state court decision was objectively

14

unreasonable.” Id. at 651 (internal quotation marks omitted). The Jackson standard is applied to a

15

crime as that crime is defined by state law. Jackson, 443 U.S. at 324 n.16.

16

Based on a review of the record, and applying these legal principles to petitioner’s current

17

allegations, the state court’s rejection of this claim was not contrary to, and did not involve an

18

unreasonable application of, Supreme Court precedent, and was not based on an unreasonable

19

determination of the facts in light of the evidence presented in the state court proceeding. 28

20

U.S.C. § 2254(d).

21
22
23

Accordingly, petitioner is not entitled to habeas relief on this claim.
3.

Exclusion of Evidence

Petitioner claims that the trial court violated his “right to present evidence or witness

24

testimony” by excluding his mother’s testimony regarding petitioner’s veracity. ECF No. 1 at 5.

25

The California Court of Appeal summarized and rejected this claim as follows:

26
27
28

The prosecution moved in limine to exclude testimony that “The defendant’s
mother, when interviewed by police regarding jail phone calls between her and the
Defendant, said that although he confessed to murder on the jail phone calls, he
frequently tells her things just to make her upset.” The prosecution argued that
admission of this evidence was precluded by Evidence Code section 1102, arguing
15

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 16 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

as follows: “In the instant case, the defendant is attempting to prove his conduct on
a particular occasion (notably not of the crime itself) by introducing evidence of his
character or a trait of his character. Evidence Code section 1102, however, does
provide the following: ‘In a criminal action, evidence of the defendant's character
or a trait of his character in the form of an opinion or evidence of his reputation is
not inadmissible by Section 1101 if such evidence is: (a) Offered by the defendant
to prove his conduct in conformity with such character or trait of character.’
“However, there are logical limitations to what a Defendant can present in terms of
character evidence under Section 1102. Notably the first (and most prescient)
limitation is the following, as held in People v. Monteverde (1965) 236 Cal.App.2d
630, 642: ‘Testimony as to an element of character not involved in the crime of
which the defendant is on trial is not admissible.’ [Citations.] Thus, the first
inquiry must be made as to what element of character the defendant is seeking to
admit with his mother’s testimony. Ostensibly, the Defendant will attempt, through
his mother, to demonstrate that he has the character trait of telling her negative
things about himself, although false, to gain her attention.
“The second, and determinative, inquiry is whether this trait of character is
‘involved in the crime of which’ the defendant is on trial. It most definitely is not.
The defendant is not charged with telling his mother true things. Nor is the
defendant charged with trying (or not trying) to get his mother’s attention. Thus,
the defendant seeks to admit evidence of a character trait that is not involved in the
crime that he is charged with. Accordingly, evidence of Defendant Molina’s
character for telling his mother true (or false) things is plainly inadmissible.”
Defendant filed a “response” in which he advised that he “will defer presenting
argument as to expected testimony of defendant’s mother . . . until the hearing of
this issue.”
In discussing the in limine motions, the prosecutor argued: “I made a motion with
respect to Mr. Molina’s mother . . . [her] proposed testimony. [¶] I anticipate—and
I don’t know because I don’t have any statements—I have a statement that she gave
to the police, obviously, but I don’t know if Mr. Hoehn [defense counsel] has any
additional statements from her. If so, I have not received them. [¶] I anticipate she
would take the witness stand and say something to the effect of: Yes, I listened—I
spoke with Mr. Molina, my son, in jail shortly after he was incarcerated. I
asked . . . him if he committed a murder, what he was charged with. [¶] He said
murder. [¶] I expressed my dismay. [¶] He replied, oh, well, I did do it. [¶] And
you should all know that there is something about my son, which is that he always
tells me things he did to get my attention. He is always falsely confessing to me,
said that he has committed when he really hasn't done them.
“That is, for my motion, inadmissible character evidence and I don’t think it should
be allowed. [¶] I also think this not only applies to the defendant’s mother, but I
think it applies to any and all mental health experts the defense will call. It was
discussed extensively in Dr. Carolyn Walser’s testimony . . . . I don’t think it’s
reflective of any psychological condition diagnosed in the DSM–IV. And I think
again, it’s inappropriate and inadmissible character evidence. I understand why the
16

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 17 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

defense wants to introduce it, but I don’t think that makes it any more . . .
admissible.”
Defense counsel responded: “ . . . [T]he material referred to by the People is
addressed by Dr. Walser as part of her opinions and conclusions . . . [a]nd
ultimately in her January 31, 2009 DSM–IV–TR diagnostic impression, her active
diagnosis includes major depression, and I believe as part of her prospective
testimony regarding Mr. Molina’s mental functioning, how his mind works. And
she ultimately indicates that he has severe neuropsychological impairment and part
of his behavior with his mother is relevant with respect to what he may say.
“And so as part of both the mother’s testimony which we would be offering
basically as her overall good character assessment of her son that he is not a violent
person, not a person that would shoot someone, not a killer despite [the] People’s
evidence through all of the gang members who blame him for the December 22
murders. There isn’t any evidence outside of that and alleged statements by him to
gang members relative to that case . . . .
“And these reports were prepared a long time ago and the People have had that in
their discovery materials for a long time. And Mr. DeFerrari [the prosecutor] is
correct, the statement in the police reports is the comment specifically addressing
the way my client would get his mother’s attention.
“But, the other component, obviously, is the other material that we are offering in
this case, specifically what was implanted in his mind by the police regarding
probably going to prison for life because they have witnesses, what can he say.
“So it’s—there two prongs to our argument why his statements have a different
meaning than what the People would say they mean. So again, it’s our right to
present evidence that we are seeking to preserve my client’s constitutional rights to
a fair trial, equal protection of the law and his other constitutional rights to present
evidence. The People don’t have to agree with it, but in order to get it before the
jury it’s ultimately, most important and it’s crucial to the defense to have this
component of that interpretation before the jury through those two witnesses, my
client’s mother and Dr. Carol Walser.
This led to the following exchange between the court and defendant’s counsel:
“THE COURT: So you are saying that the mother’s ability to say that the defendant
is a non-violent person permits her to say that he frequently says things to get my
attention that are not true?
“MR. HOEHN: She is the only person that would have that knowledge and the
Doctor relied upon that as part of her report.
“THE COURT: Right. The question is whether it’s admissible.
“MR. HOEHN: Exactly.
17

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 18 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

“THE COURT: Well, under 1102 the defendant can present its character reputation
or opinion but not through specific acts. Seems to me that these are this is a
specific act. [¶] So It’s not clear to me that his mother is permitted to testify as part
of his general opinion or reputation as an honest and law abiding person, that on
given occasions he used to do certain things to support that opinion. Generally,
specific acts are not admissible under 1102. [¶] . . . [¶] . . . I think the analysis is
different as to the psychologist or the professionals. Experts, of course, may rely
on hearsay. The question is what hearsay is admissible through the expert. And, of
course, the jury would be instructed it’s not admissible for the truth of the matter
asserted. I have to parse out the degree to which specific hearsay can be elicited in
front of the jury under the case law relating to experts.”
The prosecutor argued there was also the point “set out in . . . People v. Monteverde
. . . which is the testimony as to an element of character not involved in the crime
of which a defendant is on trial is not admissible. If the defendant were charged
with telling his mother the truth on all occasions then I think I suppose this would
be tremendously relevant evidence. It is not what the defendant is charged with, he
is charged with murder.
“Moreover, I don’t think that the psychologist gets to back door in the testimony
that the defendant always lies to his mother because he wants attention. Again, that
is not any particular part of her diagnosis. That is not a symptom of depression.
It’s nothing to do with this case, . . . it’s a convenient piece of her report for the
defendant which she entirely relies upon the defendant’s mother for. So it’s—I
guess the classic scenario of getting in the back door . . . what can’t be fit through
the front.
“On top of that, it’s not relevant to this trial. If the defendant were to take the stand
and say, look I didn’t mean what I said, I always say things to get my mom’s
attention like that. Perhaps there would be a differed argument. But . . . I don’t
think the defendant can introduce those through an expert especially considering
they don’t bolster her opinion about any of his mental conditions.”
“THE COURT: . . . [T]he question is whether hearsay is admissible through the
expert. For example, his statement that he is innocent of the crimes. I’m not sure
that isn’t admissible through the experts. [¶] . . . [T]he basis for the expert’s
opinion is admissible is so the jury can evaluate what weight to give the expert’s
opinion, but it doesn’t serve as a vehicle for admitting hearsay.”
The court continued: “The question is whether it’s relevant to the only basis for
admissibility of her [Dr. Walser’s] opinion is whether it helps the jury decide if the
defendant actually formed the intent . . . [¶] . . . [¶] . . . [or] the agreement to kill
. . . . And I understand the point that he may have intellectual deficits that affect
his ability to form that intent or whether he did in fact form that intent, but I’m not
sure I see how his testimony to try and get attention from his mother affects his
ability or impacts whether he had formed the intent or agreement to kill with his coconspirators. [¶] In other words, I think the People have a valid point that it doesn’t
relate to the admissible basis for the psychologist’s testimony on that issue. And
that is on the actual intent to kill or conspire.”
18

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 19 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

After hearing additional argument, the court then stated: “The cases on experts
generally require that the Court perform a gatekeeping function and make sure that
hearsay isn't brought in wholesale, unreliable hearsay isn’t brought in wholesale
through an expert so that the jury takes it for the truth of the matter asserted. That
is one of the functions I have to perform. [¶] . . . [¶] . . . I’ll get you rulings before
opening statements.”
The court’s eventual ruling was as follows: “On the issues of the defendant’s jail
calls and his intent at the time of the jail calls, it’s my present conclusion that the
proposed testimony from the defendant’s mother that it was the defendant’s habit
or custom or character to falsely claim things were worse than they really were in
order to get her attention is character evidence inadmissible under Evidence Code
Sections 1101 and 1102 because they are specific instances of conduct offered to
prove that the defendant acted in conformity there with the jail calls.
“There with similarly as to the proposed testimony from the mental health experts,
but based on the mother’s statements to them and the defendant’s statements to
them it is the experts’ conclusion that the defendant had the tendency to seek
attention from his mother by overly describing things as worse than they really
were is not a mental condition that is relevant to the defendant’s intent at the time
of forming a conspiracy or committing the alleged crimes, it is at best an opinion as
to what the defendant was thinking when he made certain admissions to his mother
on the telephone.
“And in my view that is expressly prohibited by . . . Penal Code sections 25, 28 and
29.
“Penal Code section 28 says that evidence of a mental disease, mental defect or
mental disorder is admissible solely on the issue of whether or not the accused
actually formed a required specific intent, premeditated, deliberated or harbored
malice aforethought when a specific intent crime is charged. The defendant’s
tendency to make things look worse when he spoke to his mother to get her
attention is not relevant to the defendant’s actually forming the required specific
intent for the charged crimes.
“So my view it is excluded by sections 25, 28 and 29 of the Penal Code.”
The standard of review for evidentiary rulings on relevance and character evidence
is abuse of discretion. (People v. Fuiava (2012) 53 Cal.4th 622, 667-668
[relevance]; People v. Doolin (2009) 45 Cal.4th 390, 437 [Evid. Code, § 1102].)
“A trial court abuses its discretion when its ruling ‘“ fall[s] ‘outside the bounds of
reason.’”’ [Citation.]” (People v. Benavides (2005) 35 Cal.4th 69, 88.) The same
stringent standard applies to excluding evidence pursuant to the Penal Code
sections cited by the trial court. (People v. San Nicolas (2004) 34 Cal.4th 614, 661663; People v. Cortes (2011) 192 Cal.App.4th 873, 909, 912.)
However, defendant attacks the exclusionary ruling only insofar as it was based on
Evidence Code section 1102. In other words, defendant does not challenge the
19

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 20 of 23

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

other grounds for the ruling.
The most elemental principle of appellate review is that trial court error is never
presumed, but must be demonstrated by the appellant. (E.g., People v. Giordano
(2007) 42 Cal.4th 644, 666.) Almost as fundamental is the principle that “‘“a
ruling or decision, itself correct in law, will not be disturbed on appeal merely
because given for the wrong reason. If right upon any theory of the law applicable
to the case, it must be sustained regardless of the considerations which may have
moved the trial court to its conclusion.”’” (People v. Brown (2004) 33 Cal.4th 892,
901.) Thus, the other grounds given by the court, which do not evoke challenge by
defendant, are deemed sufficient for the ruling. (See Western States Petroleum
Assn. v. Board of Equalization (2013) 57 Cal.4th 401, 409; 9 Witkin, Cal.
Procedure (5th ed. 2008) Appeal, § 355, pp. 409–410.)
Defendant attempts to give his argument a constitutional dimension by asserting the
ruling infringed “his constitutional due process right to present a complete defense
. . . and his constitutional right to compulsory process.” This attempt to elevate the
status of the claimed error will not prevail.
“‘As a general matter, the “[a]pplication of the ordinary rules of evidence . . . does
not impermissibly infringe on a defendant’s right to present a defense.” [Citations.]
Although completely excluding evidence of an accused’s defense theoretically
could rise to this level, excluding defense evidence on a minor or subsidiary point
does not impair an accused’s due process right to present a defense. [Citation.] If
the trial court misstepped, “[t]he trial court’s ruling was an error of law merely;
there was no refusal to allow [defendant] to present a defense, but only a rejection
of some evidence concerning the defense.” [Citation.]’“ (People v. Boyette (2002)
29 Cal.4th 381, 427-428.)
The ruling did not impair defendant’s right to present a defense. Defendant himself
could testify to his fantasist tendencies in conversing with his mother. (People v.
Gerule (2002) 28 Cal.4th 557, 605 [“Defendant was free to present this information
by taking the stand himself.”].) That, together with counsel’s closing argument,
could serve to acquaint the jury with the defense theory that defendant did not
commit the charged offense. (See People v. Whisenhunt (2008) 44 Cal.4th 174,
213 [“Through defendant’s testimony and defense counsel’s closing argument, the
jury was fully apprised of the defense theories”].) Thus, “the trial court merely
rejected some evidence concerning a defense, and did not preclude defendant from
presenting a defense.” (People v. McNeal (2009) 46 Cal.4th 1183, 1203.) The
excluded evidence was “defense evidence on a minor or subsidiary point.” (People
v. Boyette, supra, at p. 428.) Yes, it can be seen as involving defendant’s
credibility, but only in the sense of collaterally impeaching a single statement.
Excluding one source of that impeachment did not undermine the prosecution’s
case against defendant.
Lastly the “right to present a complete defense” principle invoked by defendant
appears limited to capital cases. (See People v. Homick (2012) 55 Cal.4th 816,
855; People v. Rogers, supra, 39 Cal.4th 826, 872 & fn. 18.) That is not implicated
here.
20

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 21 of 23

1
2
3
4

United States District Court
Northern District of California

5

In light of the foregoing, defendant has not established that granting the
prosecution’s in limine motion amounted to a clear abuse of discretion. (People v.
Fuiava, supra, 53 Cal.4th 622, 667-668; People v. Benavides, supra, 35 Cal.4th 69,
88.)
People v. Molina, 2014 WL 2553335, at *7-11 (footnote omitted).
A state court’s evidentiary ruling is not subject to federal habeas review unless the ruling

6

violates federal law, either by infringing upon a specific federal constitutional or statutory

7

provision or by depriving the defendant of the fair trial guaranteed by due process. Pulley v.

8

Harris, 465 U.S. 37, 41 (1984); Jammal v. Van de Kamp, 926 F.2d 918, 919-20 (9th Cir. 1991).

9

Failure to comply with state rules of evidence is neither a necessary nor a sufficient basis for

10

granting federal habeas relief on due process grounds. Henry v. Kernan, 197 F.3d 1021, 1031 (9th

11

Cir. 1999); Jammal, 926 F.2d at 919. While adherence to state evidentiary rules suggests that the

12

trial was conducted in a procedurally fair manner, it is also possible to have a fair trial even when

13

state standards are violated. Perry v. Rushen, 713 F.2d 1447, 1453 (9th Cir. 1983).

14

“[S]tate and federal rulemakers have broad latitude under the Constitution to establish rules

15

excluding evidence from criminal trials.” Holmes v. South Carolina, 547 U.S. 319, 324 (2006)

16

(alteration in original) (quoting United States v. Scheffer, 523 U.S. 303, 308 (1998)); see also

17

Montana v. Egelhoff, 518 U.S. 37, 42 (1996) (due process does not guarantee a defendant the right

18

to present all relevant evidence). “[T]he introduction of relevant evidence can be limited by the

19

State for a valid reason.” Id. at 53 (internal quotation marks omitted). But this latitude is limited

20

by a defendant’s constitutional rights to due process and to present a defense, rights originating in

21

the Sixth and Fourteenth Amendments. Holmes, 547 U.S. at 324. Due process is violated only

22

where the excluded evidence had “persuasive assurances of trustworthiness” and was critical to

23

the defense. Chambers v. Mississippi, 410 U.S. 284, 302 (1973). “Only rarely [has the Supreme

24

Court] held that the right to present a complete defense was violated by the exclusion of defense

25

evidence under a state rule of evidence.” Nevada v. Jackson, 133 S. Ct. 1990, 1992 (2013).

26

Based on a review of the record, and applying these legal principles to petitioner’s current

27

allegations, the state court’s rejection of this claim was not contrary to, and did not involve an

28

unreasonable application of, Supreme Court precedent, and was not based on an unreasonable
21

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 22 of 23

1

determination of the facts in light of the evidence presented in the state court proceeding. 28

2

U.S.C. § 2254(d). Further, in light of the overwhelming evidence against petitioner, any error in

3

excluding the evidence cannot be considered prejudicial. See Brecht v. Abrahamson, 507 U.S.

4

619, 637 (1993).
Accordingly, petitioner is not entitled to habeas relief on this claim.

5
6

C.

The federal rules governing habeas cases brought by state prisoners require a district court

7
8

that issues an order denying a habeas petition to either grant or deny therein a certificate of

9

appealability. See Rules Governing § 2254 Case, Rule 11(a).
A judge shall grant a certificate of appealability “only if the applicant has made a

10

United States District Court
Northern District of California

Certificate of Appealability

11

substantial showing of the denial of a constitutional right,” 28 U.S.C. § 2253(c)(2), and the

12

certificate must indicate which issues satisfy this standard. Id. § 2253(c)(3). “Where a district

13

court has rejected the constitutional claims on the merits, the showing required to satisfy § 2253(c)

14

is straightforward: [t]he petitioner must demonstrate that reasonable jurists would find the district

15

court’s assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S.

16

473, 484 (2000).
Here, petitioner has not made such a showing, and, accordingly, a certificate of

17
18

appealability will be denied.
CONCLUSION

19

For the reasons stated above, the petition for a writ of habeas corpus is DENIED, and a

20
21

certificate of appealability is DENIED.
The Clerk shall enter judgment in favor of respondent and close the file.

22
23

///

24

///

25

///

26

///

27

///

28

///
22

Case 3:16-cv-00207-JST Document 36 Filed 02/20/18 Page 23 of 23

1
2
3
4

Additionally, the Clerk is directed to substitute Robert W. Fox on the docket as the
respondent in this action.
IT IS SO ORDERED.
Dated: February 20, 2018

5
JON S. TIGAR
United States District Judge

6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
23

APPENDIX D
Order (Granting Certificate of Appealability)

Case
Case:3:16-cv-00207-JST
18-15599, 09/25/2018,
Document
ID: 11025015,
42 Filed
DktEntry:
09/27/18
9-1,Page
Page11ofof22

FILED

UNITED STATES COURT OF APPEALS

SEP 25 2018

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

HECTOR D. MOLINA,
Petitioner-Appellant,
v.
ROBERT W. FOX, Warden,

No.

18-15599

D.C. No. 3:16-cv-00207-JST
Northern District of California,
San Francisco
ORDER

Respondent-Appellee.
Before: GRABER and M. SMITH, Circuit Judges.
The request for a certificate of appealability (Docket Entry Nos. 2 & 8) is
granted with respect to the following issue: whether the evidence was sufficient to
support appellant’s convictions for the murders of Lisa Thayer and Rico McIntosh.
See 28 U.S.C. § 2253(c)(3); see also 9th Cir. R. 22-1(e).
Counsel is appointed for purposes of this appeal. See 18 U.S.C.
§ 3006A(a)(2)(B); Weygandt v. Look, 718 F.2d 952, 954 (9th Cir. 1983). Counsel
will be appointed by separate order.
The Clerk shall electronically serve this order on the appointing authority for
the Northern District of California, who will locate appointed counsel. The
appointing authority shall send notification of the name, address, and telephone
number of appointed counsel to the Clerk of this court at
counselappointments@ca9.uscourts.gov within 14 days of locating counsel.

Case
Case:3:16-cv-00207-JST
18-15599, 09/25/2018,
Document
ID: 11025015,
42 Filed
DktEntry:
09/27/18
9-1,Page
Page22ofof22

The opening brief is due January 23, 2019; the answering brief is due
February 22, 2019; the optional reply brief is due within 21 days after service of
the answering brief.
The Clerk shall serve on appellant a copy of the “After Opening a Case Counseled Cases” document.
If Robert Fox is no longer the appropriate appellee in this case, counsel for
appellee shall notify this court by letter of the appropriate substitute party within
21 days of the filing date of this order. See Fed. R. App. P. 43(c).

2

18-15599

APPENDIX E
Opinion, California First District Court of Appeal
People v. Molina No. A136914 (June 6, 2014)

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 142 of 251

Filed 6/6/14 P. v. Molina CAl/2

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion nas not been certified for publication
·
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRlCT
DIVISION TWO

THE PEOPLE,
Plaintiff and Respondent,

Al36914

v.

(Contra Costa County
Super. Ct. No. 50809020)

HECTOR DAVID BETANCES MOLINA,
Defendant and Appellant.

Following a 2008 indictment, and an extended period during which criminal
proceedings were suspended due to doubts about his competency to stand trial, the trial of
defendant Hector David Betances Molina commenced in late May 2013. The jury
convicted him of three counts of first degree murder; one count of second degree murder;
two counts of attelnpted murder; one count of conspiracy to commit murder and assault
with a deadly weapon; and one count of participation in a criminal street gang. The jury
also found true a number of enhancement allegations relating to defendant's personal use
of a firearm, his personally inflicting great bodily injury, and his gang connections for all
·but one of the offenses. The trial court sentenced defendant to state prison for an·
aggregate term of 169 years and four months, to be served consecutive to a term of life
without the possibility of parole.
Defendant asserts three arguments on appeal: (1) substantial evidence does not
support the trial court's decision that he was competent to stand trial; (2) the trial couii
abused its discretion when it excluded testimony from defendant's mother regarding
defendant's credibility; and (3) two of his four murder convictions must be reversed

1

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 143 of 251

because there is no substantial evidence from which a reasonable jury could conclude that
defendant "perpetrated, aided and abetted, or conspired to commit" the two offenses. We
conclude that none of these arguments has merit, and we affirm.

BACKGROUND
It will not be necessary to recapitulate the triaJ record of more than 4,000 pages.
Defendant directly challenges only two of his nine convictions. He does not challenge
the gang-related count and enhancements, evidencing that he does dispute his gang
membership or that a number of crimes were committed "with the specific intent to
promote, further, or assist in any criminal conduct" by a criminal street gang (Pen. Code,

§ 186.22, subd. (b)). The evidence in connection with the two challenged murder counts
will be recounted when the merits of defendant's attack are considered at a later point in
this opinion. A narrative encompassing the unchallenged convictions may therefore be
reduced to the following:
According to the prosecution's gang.expert witness and former gang members, by
2007, the VFL and ML Surefio gangs were encountering hard times. Gang members
were breaking the prohibition on ldlling other members, and successive leaders were
forced to leave the country. Following an informal amalgamation, VFL and ML
members sought to boost their waning prestige with a strategy of killing rival Nortefio
gang members. Defendant was a member of VFL and one of the members hunting down
Nortefios.
Defendant went hunting on the night of December 22, 2007. Defendant was one
of a number of Surefios who hid behind a fence until some Nortefios came into view and
then opened fire. Defendant killed Antonio Cintron (count one) and attempted to kill
Adrian Espinoza (count two) and Neil Wixon (count three). Defendant was also
convicted of conspiring to kill (count four) and engaging in gang activity (count five).
On February 16, 2008, defendant was driving one nfthe two vehicles full of
Surefios. When a suspected Nortefio was found, defendant told the others to "get that
motherfucker." Other gang members got out and killed Luis Perez (count seven).

2

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 144 of 251

Defendant was arrested on February 27, 2008, and was never thereafter out of
cu~tody. While in custody, defendant had a number of telephone calls with his mother
and the then VFL leader. The calls were recorded. During the conversation, defendant
made a number of statements that could be construed as confessing to murder. Defendant
also made a number of incriminating statements- including that he had shot Antonio
Cintron-to a VFL member who had agreed to become a police informant. The
informant also testified that two other gang members identified defendant as Cintron's
murderer.
February 27 was also the day on which homeless bystander Lisa Thayer was killed
(count eight) when she was caught between Surefios firing at the occupants of a passing
car.
On April 26, 2008, Rico McIntosh was shot on the streets of San Pablo. Before he
died of his wounds (count nine), McIntosh told police that he had been shot by the
Hispanic male occupants of a vehicle. McIntosh was killed by VFL members in the
mistaken belief he was a Nortefio.
Defendant did not testify in his own behalf. The only witnesses called for the
defense were: (1) Adrian Espinoza, who testified that he was unable to identify who shot
him; (2) a private investigator, who testified that Espinoza gave him a version of the
shooting that differed from his trial testimony; and (3) Dr. Carol Walser, who testified to
defendant's low I.Q. and lifelong impaired cognitive functions which placed him "at the
mental retardation level."

REVIEW

Substantial Evidence Supports The Trial Court's
Determination That Defendant Was Competent To Stand Trial
State and federal constitutional law require a defendant to understand the
proceedings against him and to be able to assist in his defense. (People v. Elliott (2012)
53 Cal.4th 535, 582-583; Godinez v. Moran (1993) 509 U.S. 389, 396.) "Under
California law, a person is incompetent to stand trial 'if, as a result of mental disorder or

3

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 145 of 251

developmental disability, the defendant is unable to understand the nature of the criminal
proceedings or to assist counsel in the conduct of a defense in a rational manner.' "

(People v. Young (2005) 34 Cal.4th 1149, 1216, quoting Pen. Code,§ 1367, subd. (a);
accord, People v. Rogers (2006) 39 Cal.4th 826, 846-847.) A defendant is incompetent
to stand trial if he or she lacks a sufficient present ability to consult with his lawyer with a
reasonable degree of rational understanding, and a rational as well as a factual
understanding of the proceedings against him. (Drope v. Missouri (1975) 420 U.S. 162,
171; Dusky v. United States (1960) 362 U.S. 402.)
A defendant is presumed competent unless by a preponderance of the evidence he
proves that he is not competent. (Pen. Code, § 1369, subd. (f); People v. Lawley (2002)
27 Cal.4th 102, 131.) An appellate court conducts a deferential standard of review to
determine whether substantial evidence supports the trial court's finding. (People v.

Dunkle (2005) 36 Cal.4th 861, 885; People v. Marshall (1997) 15 Cal.4th 1, 31.)
Here, at the conclusion of a three-day evidentiary hearing, the trial court ruled that
defendant was competent to stand trial. The ruling is thoughtful indeed; it takes up 11
pages in the reporter's transcript and appears to have been prepared in advance and·read
into the record. Extensive excerpts deserve quotation:
"Defendant's claim of incompetency rests almost exclusively on the testimony of
D·r. Patricia Spive:Y .... She testified that it was her opinion that the defendant is unable
to understand the.nature of.the proceedings, that is, unable ~o understand what a trial is all
about. She further opined that he suffers from an ongoing and long-term learning
disability, which probably accounts for this inability on his part to understand. [,JJ Her
opinion with regard to defendant having a learning disability of some sort appears to me
to be well-supported. [,JJ In my opinion these mental deficits which appear to have
existed from youth probably qualify him as developmentally disabled as that term is used
in Penal Code 1367 and 1370.1. [,i] ... [,JJ
"The real issue in this case ... is not whether ... Mr. Molina is developmentally
disabled or mentally disordered. The real question that I'm facing is whether as a result
of whatever mental deficits he has, he is rendered unable to understand what's going on
4

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 146 of 251

in trial. That's really the key thing that I've been called upon to decide in this matter.

[ti Dr. Spivey admitted that her opinion that defendant's mental deficits would keep him
from being able to understand what's going on in trial is based primarily on the results of
a CAST ... more particularly, on the results of that portion pf the test which is designed
to determine whether ... the person taking the test knows the roles of various participants
in trial. ...
"The defendant scored poorly on the test. For a number of reasons, however, I
seriously question the reliance that Dr. Spivey placed on the results of this text. For one
thing, the test assumes there is only one correct answer to each of the test questions ....

[ti ... [1] . ..Then too, absent evidence of malingering, the test accepts as true any 'I
don't know' response that may be given to any question. [1] But just because a person
says he or she doesn't know does not necessarily mean that is, in fact, the case. There is
evidence, for example, that the defendant . .. sometimes says that he doesn't know
something when, in fact, he does."
"Additionally, his ... ·'I don't know' responses to such questions as: What does a
judge do, what does a prosecutor do, et cetera, should not have been accepted at face
value, ... given the fact that only a couple of months earlier defendant gave responses on
tests administered by Mr. Juan Velasquez . . . demonstrating that he, in fact, knew very
well the role of such individuals. Dr. Spivey explains this disparity ... as being the
function of defendant's retention limitations.

[ti This explanatio!1 is not ... satisfactory.

It's hard to believe that a person such as defendant, who knew as far back as 2008 and as
recently as August 2011 that a witness was a person who saw the crime would no longer
be able to remember this two months later in November of 2011 and think instead that a
witness was a 111.ember of the jury.

[ti As Dr. Solomon pointed out, a person with so

great a retention limitation as this would be expected to manifest all manner of other
difficulties which, in fact, were not exhibited by defendant.

[ti ... [ti

"Above my reservations about the value of the CAST-MR results in this case and
the negative opinion this has on the weight I am prepared to give Dr. Spivey's opinion
testimony, there is the matter of other evidence presented in this case. I'm referring

5

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 147 of 251

primarily to the video interview conducted of the defendant by the police in 2008 and the
... phone conversations defendant had with his mother and others shortly thereafter
while he was in jail, and also to some extent the more recent observations of the
defendant made by his jailers.

[ilJ I find this other evidence very revealing as to whether

defendant would be able to understand what goes on at a trial and ... assist his counsel in
providing a defense at such trial.
"First of all, I call your attention to the very early portion of that interview where
the defendant not only states expressly that he understands his Miranda rights, that is his
right to remain silent, ... the fact that anyth.ing he says might be used against him, his
right to an attorney and the right to have an attorney appointed free of charge. Not only
does the defendant expressly say that he understands this matter, but he demonstrated
this. He demonstrated the fact he understood these rights, or at least the right to remain
silent, by identifying it as one of the Miranda rights even before the police told him what
the Miranda rights consist of.
"Additionally, . .. he actually invoked his right to remain silent towards the end of
the interview when it became clear ... to him that the police were not buying his story.
Such a person would clearly understand his right not to be compelled to testify at trial and
would appreciate the circumstances when such right should be exercised. ...
"Now turning fo the interview of a whole ... [~] ... [D]uring the course of the
interview it's clear that Mr. Molina understood that the police were, in effect, accusing
him or charging him of the murder. He clearly understood the consequences of those·
charges. That is, if they were established, that he would go to prison for life.

[ilJ And

most importantly he formulated a defense to those charges. . . [,[] .. . In fact, formulated
might be too soft a word, fabricated a defense. A~ we later learned during the course of
his conversation with his mother, .. . he effectively admitted that he had committed the
crime. But with the police, not only did he deny committing the crime, he gives an
explanation of why he couldn't have done the crime, to wit~ he wasn't there."
"Significantly, he also understood that ... the burden was .. . in this regard ... on
the People to prove that he was guilty. They kept on inviting him to prove his innocence,
6

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 148 of 251

to prove that he wasn't there . . . . And he kept on telling them, no, you have to prove
_that I was there. . . . [,i] Additionally ... , he demonstrated during the course of this
interview ... that he was able to evaluate the worth of the police evidence" and "to
suggest line of attacking that evidence."
Moreover, "defendant did not allow himself to be tricked .by the police [into]
implicating himself, nor did he buckle under ... their strong and persistent pressure.
[,i] If we were dealing with a feeble-minded person who didn't understand what was

going on, one would expect that he would succumb to these ploys of the police. Not at
all. He knew exactly [what] they were saying and formulated a defense to it and stuck to
his guns throughout the entire [interview].'' "During the interview he gave ~very
appearance of being very attentive and very comprehending. . . . [,i] .. . [T]his video of
the interview shows that the defendant clearly understood what was going on . . . He was
very understanding of the situation he was in."
"I'll alsu note some highlights that I think are telling from the phone calls that he
had with his mother and others from the jail. ... [D]uring the course of those phone calls
... he was giving instructions on how someone is to find a phone number on his cell
phone directing ... how you pull that information out" of the cell phone. At another point
he indicated that he realized his taxes had to be filed, important things like this to be
done. And he gave directions that someone should do that.
"Another point: He talked about how his car should be sold so money could be
raised to provide him with food and other items while he was in jail_... [A]nother aspect
~hich I found very telling was that he explained that someone had to see a traffic judge.
Appears he had received a ticket and explained that he was in jail, so he wouldn't get in
greater trouble for [not] paying the ticket.
"Additionally, he made arrangements with one of his ... fellow gang members ...
to take care of his mother. And then, more recently he was <?bserved ... by the jailers, by
various guards at the detention facility, processing requests not only on his own behalf
but on behalf of other inmates ... which appears that ... other cellmates were relying on
him to do this on [their] behalf.

7

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 149 of 251

"Look, I do not believe that it takes a rocket scientist to understand what goes on a
trial and to be able to assist counsel in such a proceeding. And I do not believe that the
due process requirements of the United States and California Constitutions require any
greater understanding of what takes place at a trial than the defendant demonstrated that
he is capable of in the interview he had with ... police, his jail phone conversations with
his family and his conduct in jail.
"I do not believe that it has been established by a preponderance of the evidence
that he is incompetent and maybe more importantly I am satisfied that the evidence I've
alluded to ... indicates quite convincingly that although he may be slow and although he
may have limitations that may be characterized as mental deficits, that these do not keep
him from being able to understand what takes place at a trial or keep him in any way
from being able to assist his counsel.
"Accordingly, I find him competent to stand trial pursuant to Penal Code
section 1367 and also under the due process clauses of both the United States and the
California Constitutions."
Defendant contends that ruling lacks the support of substantial evidence. "In
reviewing a jury verdict that a defendant is mentally competent to stand trial, an appellate
court must view the record in the light most favorable to the verdict and uphold the
verdict if supported by substantial evidence." (People v. Marshall, supra, 15 Cal.4th 1,
31.) "In applying the test, we review the evidence in the light most favorable to the
prosecution and presume in support of the judgment the existence of every fact the [trier
of fact] could reasonably have deduced from-the evidence. [Citation.] 'Conflicts and
even testimony [that] is subject to justifiable suspicion do not justify the reversal of a
judgment, for it is the exclusive province of the trial judge ... to determine the credibility
of a witness and the truth or falsity of the facts upon which a determination depends ... .'
[Citation.] A reversal for insufficient evidence 'is unwarranted unless it appears "that
upon no hypothesis whatever-is there sufficient substantial evidence to support" the [trier
of fact's decision.] [Citation.] [,O The same standard governs in cases where the
prosecution relies primarily on circumstantial evidence. [Citation.]" (People v. Zamudio

8

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 150 of 251

(2008) 43 Cal.4th 327, 357.) "On appeal a finding of competency to stand trial 'cannot
be disturbed if there is any substantial and credible evidence in the record to support the
finding." (People v. Hightower (1996) 41 Cal.App.4th 1108, 1111.)
The court heard the testimony of eight witnesses, including one mental health
professional for each side, and considered numerous exhibits. There is no need to
summarize the totality of the evidence, because it is readily apparent that there is ample
substantial evidence supporting the trial court's determination that defendant was
competent to stand trial.
It is certainly true that the defense psychologist, Dr. Patricia Spivey, was firmly of

the opinion that defendant was not competent to stand trial. But the prosecution's
psychiatrist, Dr. Randall Solomon, was just as adamant that defendant was competent.
That should be, and is, the end of the matter, for it is a settled principle that a single
witness, if deemed credible by the trier of fact, is substantial evidence. (Evid. Code,
§ 411; People v. Cudjo (1993) 6 Cal.4th 585, 608-609; see People v. Leonard (2007)
40 Cal.4th 1370, 1391 -1393 [report and testimony of one expert witness constitute
su.bstantial evidence].)
Yet defendant argues that "the evidence of incompetency presented by the defense
[i.e. Dr Spivey's testimony] was substantial," indeed, "compelling," while "the evidence
of competency presented by the prosecution and relied on by the court was insubstantial."
But it was defendant who was carrying the burdens of persuasion and proof to rebut the
presumption that he was competent. (People v. Ary (2011) 51 Cal.4th 510, 517-518;
People v. Marks (2003) 31 Cal.4th 197, 215.) Whether evidence is compelling is in the

eye of the trier of fact, which in this case means we must accept that it was not Dr.
Spivey. The trial court's detailed comments ("I seriously question," "This explanation is
not ... satisfactory," "my reservations," "the negative opinion this has on the weight I
am prepared to give Dr. Spivey's opinion") leave no room for doubt on this point.
Moreover, the court made it clear that the "other evidence" was "very revealing as to
whether defendant would be able to understand what goes on at a trial and ... assist his
counsel in providing a defense at such trial."
9

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 151 of 251

Defendant implicitly treats Dr. Spivey,s more recent examination as being
inherently more credible than Dr. Solomon,s "outdated" evidence, but he provides no
authority for such a conclusion. The freshness or staleness of an examination would
appear to be merely one factor going only to the weight of the opinion it supports. (See
People v. Valencia (2008) 43 Cal.4th 268, 295; People v. Boyer (2006) 38 Cal.4th 412,
480-481; cf.-People v. Cobb (2010) 48 Cal.4th 243,252 ["A defendant's condition a year
earlier is relevant but not dispositive" to issue of whether he qualifies as mentally
disordered offender]; People v. Dunkle, supra, 36 Cal.4th 861, 889-890 Oury could
consider the timing and amount of time experts spent interviewing defendant].) And the
weight to be given to testimony is a matter conclusively entrusted to the trier of fact.
(People v. Lindberg (2008) 45 Cal.4th 1, 27; see People v. Guerra (2006) 37 Cal.4th
1067, 1129.)
Defendant's expert exclusive approach would seem to deny utility to the mass of
nonexpert, circumstantial evidence cited by the trial court. (Cf. People v. Rogers, supra,
39 Cal.4th 826, 847 ["Evidence of incompetency may emanate from several sources,
including the defendant,s demeanor, irrational behavior, and prior mental evaluations."];
People v. Ramos (2004) 34 Cal.4th 494, 507 ["Substantial evidence of incompetence may
arise from sep·arate sources"].) The testimony of lay persons might not be as weighty as
the opinion of mental health professionals, but it is not to be dismissed as worthless. The
testimony of law enforcement personnel and jailers who had personal experience with the
defendant would seem to have a particular insight into certain aspects of defendant's
ability to deal with, and to interact with, the workings of the legal system. Indeed, the
trial court found it "very revealing" on the issues of defendant's competency. Moreover,
this precise category of evidence was considered and implicitly treated as relevant by our
Supreme Court in People v. Dunkle, supra, 36 Cal.4th 861, 888-889. Finally, although it
does not appear to be directly involved here, the judicial officer,s personal observations
of the defendant may be consulted in determinations of competency. (See People v.
Lewis (2008) 43 Cal.4th 415, 525; People v. Danielson (1992) 3 Cal.4th 691, 727.)

10

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 152 of 251

"A defendant is deemed competent to stand trial . . . if he ' "has sufficient present
ability to consult with his lawyer with a reasonable degree of rational
understanding" 'and ' "has a rational as well as factual understanding of the proceedings
against him." ' " (People v. Ary, supra, 51 Cal.4th 510, 517.) Our review of the record,
conducted along the lines of the trial court's ruling, establishes that that ruling has the
support of ample, if not abundant, substantial evidence. (Evid. Code, § 411; People v.
Zamudio, supra, 43 Cal.4th 327, 357; People v. Hightower, supra, 41 Cal.App.4th 1108,

1111.)
The Trial Court Did Not Abuse Its Discretion In
Excluding Testimony From Defendant's Mother

The prosecution moved in limine to exclude testimony that "The defendant's
mother, when interviewed by police regarding jail phone calls between her and the
Defendant, said that although he confessed to murder on the jail phone calls, he
frequently tells her things just to make her upset." The prosecution argued that admission
of this evidence was precluded by Evidence Code section 1102, arguing as follows: "In
the instant case, the defendant is attempting to prove his conduct on a particular occasion
(notably not of the crime itself) by introducing evidence of his character or a trait of his
character. Evidence Code section 1102, however, does provide the following: 'In a
criminal action, evidence of the defendant's character or a trait of his character in the
form of an opinion or evidence of his reputation is not inadmissible by Section 1101 if
such evidence is : (a) Offered by the defendant to prove his conduct in conformity with
such character or trait of character.'
"However, there are logical limitations to what a Defendant can present in terms
of character evidence under Section 1102. Notably the first (arid most prescient)
limitation is the following, as held in People v. Monteverde (1965) 236 -Cal.App.2d 630,
642: 'Testimony as to an element of character not involved in the crime of which the

11

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 153 of 251

1

defendant is on trial is not admissible.' [Citations.] Thus, the first inquiry must be made
as to what element of character the defendant is seeking to admit with his mother's
testimony. Ostensibly, the Defendant will attempt, through his mother, to demonstrate
that he has the character trait of telling her negative things about himself, although false,
to gain her attention.
"The second, and determinative, inquiry is whether this trait of character is
'involved in the crime of which' the defendant is on trial. It most definitely is not. The
defendant is not charged with telling his mother true things. Nor is the defendant charged
with trying (or not trying) to get his mother's attention. Thus, the defendant seeks to
admit evidence of a character trait that is not involved in the crime that he is charged
with. Accordingly, evidence of Defendant Molina's character for telling his mother true
(or false) things is plainly inadmissible."

1

Notwithstanding the prosecutor's citation of a single authority that is· almost
60 years old, the point made by Monteverde is very well established. One of the two
decisions cited by the Monteverde court was People v. Chrisman ( 1901) · 13 5 Cal. 282,
where our Supreme Court held it was not error to preclude a witness from answering the
question" 'What were the boy's habits as to steadiness, drinking, or anything of that
sort?' "because, with respect to a person on trial for grand larceny, "This question did
not touch his character or reputation for honesty, whi.ch was the trait involved in the
charge made against him." (Id. at p. 288.) Chrisman cited People v. Ashe (1872) 44 Cal.
288, where the _Supreme Court stated that a criminal defendant "is permitted to support
the ... presumption of innocence by proof of the fact that his personal character in the
trait involved in the charge has previously been good:" (Id. atp. 291.)
Nothing changed with the adoption of the Evidence Code. The Law Revision
Commission made this comment to Evidence Code section 1102: "Under Section 1102,
the accused in a criminal case may introduce evidence of his good character to show his
innocence of the alleged crime-provided that the character or trait of character to be
shown is relevant to the charge made against hlm. This codifies existing law. People v.
Chrisman, 135 Cal. 282 ... (1901)." (Cal. Law Rev. Com. com. 29B Pt. 3B, West's
Ann. Evid. Code (2009 ed.) foll. § 1102, p. 311; see Wydich, Character Evidence: A
guided Tour of the Grotesque Structure (1987-1988) 21 U.C. Davis L. Rev. 123, 141-142
["To be relevant, the defendant's evidence must concern a character trait that is
inconsistent with the crime charged."].)
12

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 154 of 251

Defendant filed a "response" in which he advised that he "will defer presenting
argument as to expected testimony of defendant's mother ... until the hearing of this
issue."
In discussing the·in limine motions, the prosecutor argued: "I made a motion with

respect to Mr. Molina's mother .. . [her] proposed testimony. [~] I anticipate-and I
don't know because I don't have any statements-I have a statement that she gave to the
police, obviously, but I don't know if Mr. Hoehn [defense counsel] has any additional
statements from her. If so, I have not received them.

[m I anticipate she would take the

witness stand and say something to the effect of: .Yes, I listened-I spoke with Mr. ·
Molina, my son, in jail shortly after he was incarcerated. I asked ... him ifhe committed
a murder, what he was charged with. [~] He said murder.

[m I expressed my dismay.

[m He replied, oh, well, I did do it. [m And you should all know that there is something
about my son, which is that he always tells me things he did to get my attention. He is
always falsely confessing to me, said that he has committed when he really hasn't done
them.
"That is, for my motion, inadmissible character evidence and I don't think it
should be allowed.

[m I also think this not only applies to the defendant's mother, but I

think it applies to any and all mental health experts the defense will call. It was discussed
extensively in Dr. Carolyn Walser's testimony .... I don't think it's reflective of any
psychological ·condition diagnosed in the DSM-IV. And I think again, it's inappropriate
and inadmissible character evidence. I understand why the defense wants to introduce it,
but I don't think that makes it any more ... admissible."
Defense counsel responded: " ... [T]he material referred to by the People is
addressed by Dr. Walser as part of her opinions and conclusions ... [a]nd ultimately in
her January 31, 2009 DSM-IV-TR diagnostic impression, her active diagnosis includes
major depression, and I believe as part of her prospective testimony regarding
Mr. Molina's mental functioning, how his mind works. And she ultimately indicates that
he has severe neuropsychological impairment and part of his behavior with his mother is
relevant with respect to what he may say.
13

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 155 of 251

"And so as part of both the mother's testimony which we would be offering
basically as her overall good character assessment of her son that he is not a violent
person, not a person that would shoot someone, not a killer despite [the] People's
evidence through all of the gang members who blame him for the December 22 murders.
There isn't any evidence outside of that and alleged statements by him to gang members
relative to that case ....
"And these reports were prepared a long time ago and the People have had that in
their discovery materials for a long time. And Mr. DeFerrari [the prosecutor] is correct,
the statement in the police reports is the comment specifically addressing the way my
client would get his mother's attention.
"But, the other component, obviously, is the other material that we are offering in
this case, specifically what was implanted in his mind by the police regarding probably
going to prison for life because they have witnesses, what can he say.
"So it's-there two prongs to our argument why his statements have a different
meaning than what the People would say they mean. So again, it's our right to present
evidence that we are seeking to preserve my client's constitutional rights to a fair trial,
equal protection of the law and his other constitutional rights to present evidence. The
People don't have to agree with it, but in order to get it before the jury it's ultimately,
most important and it's crucial to the defense to have this component of that
interpretation before the jury through those two witnesses, my client's mother and
Dr. Carol Walser.
This .led to the following exchange between the court and defendant's counsel:

"TI-IE COURT: So you are saying that the mother's ability to say that the
defendant is a non-violent person permits her to say that he frequently says things to get
my attention that are not true?
"MR. HOEHN: She is the only person that would have that lmowledge and the
Doctor relied upon that as part of her report.
"THE COURT: Right. The question is whether it's admissible.
"MR. HOEHN: Exactly.
14

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 156 of 251

"THE COURT: Well, under 1102 the defendant can present its character
reputation or opinion but not through specific acts. Seems to me that these are this is a
specific act.

[fl So it's not clear to me that his mother is permitted to testify as part of his

general opinion or reputation as an honest and law abiding person, that on given
occasions he used to do certain things to support that opinion. Generally, specific acts
are not admissible under 1102. [ii] .. . °[,a

... I think the analysis is different as to the

psychologist or the professionals. Experts: of course, may rely on hearsay. The question
is what hearsay is admissible through the expert. And, of course, the jury would be
instructed it's not admissible for the truth of the matter asserted. I have to parse out the
degree to which specific hearsay can be elicited in front of the jury under the case law
relating to experts."
The p1:osecut~r argued there was also the point "set out in ... People v.

Monteverde ... which is the testimony as to an element of character not involved in the
crime of which a defendant is on trial is not admissible. If the defendant were charged
with telling his mother the truth on all occasions then I think I suppose this would be
tremendously relevant evidence. It is not what the defendant is charged with, he is
charged with murder.
"Moreover, I don't think that the psychologist gets to back door in the testimony
that th~ defendant always lies to his mother because he wants attention. Again, that is not
any particular part of her diagnosis. That is not a symptom of depression. It's nothing to
do with this case, ... it's a convenient piece of her report for the defendant which she
entirely relies upon the defendant's mother for. So it's-I guess the classic scenario of
getting in the back door ... what can't be fit through the front.
"On top of that, it's not relevant to this trial. If the defendant were to take the
stand and say, look I didn't mean what I said, I always say things to get my mom's
attention like that. Perhaps there would be a differed argument. But ... I don't think the
defendant can introduce those through an expert especially considering they don't bolster
her opinion about any of his mental conditions."

15

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 157 of 251

"THE COURT: ... [T]he question is whether hearsay is admissible through the
expert. For example, his statement that he is innocent of the crimes. I'm not sure that
isn't admissible through the experts. [1] ... [T]he basis for the expert's opinion is
admissible is so the jury can evaluate what weight-to give the expert's opinion, but it
doesn't serve as a vehicle for admitting hearsay."
The court continued: "The question is whether it's relevant to the only basis for
admissibility of her [Dr. Walser's] opinion is whether it helps the jury decide if the
defendant actually formed the intent ... [,r] ... [,r] . . . [or] the agreement to kill ....
And I understand the point that he may have intellectual deficits that affect his ability to
form that intent or whether he did in fact form that intent, but I'm not sure I see how his
testimony to try and get attention from his mother affects his ability or impacts whether
he had fonned the intent or agreement to kill with his co-conspirators. [,O In other words,
I think the People have a valid point that it doesn't relate to the admissible basis for the
psychologist's testimony on that issue. And that is on the actual intent to kill or
conspire." ·
After hearing additional argument, the cm~rt then stated: "The cases on experts
generally require that the Court perform a gatekeeping function and make sure that
hearsay isn't brought in wholesale, unreliable hearsay isn't brought in wholesale through
an expert so that the jury takes it for the truth of the matter asserted. That is one of the
functions I have to perform. [,r] ... [,r] ... I'll get you rulings before opening
statements.,,
The court's eventual ruling was as follows: "On the issues of the defendant's jail
calls and his intent at the time of the jail calls, it's my present conclusion that the
proposed testimony from the defendant's mother that it was the defendant's habit or
custom or character to falsely claim things were worse than they really were in order to
get her attention is character evidence inadmissible under Evidence Code Sections 1101
and 1102 because they are specific instances of conduct offered to prove that the
defendant acted in conformity there with the jail calls.

16

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 158 of 251

"There with similarly as to the proposed testimony from the mental health experts,
but based on the mother's statements to them and the defendant's statements to them it is
the experts' conclusion that the defendant had the tendency to seek attention from his
mother by overly describing things as worse than they really were is not a mental
condition that is relevant to the defendant's intent at the time of fonning a conspiracy or
committing the alleged crimes, it is at best an opinion as to what the defendant was
thinking when he made certain admissions to his mother on the telephone.
"And in my view that is expressly prohibited by ·. . . Penal Code sections 25, 28
and 29.
"Penal Code section 28 says that evidence of a mental disease, mental defect or
mental disorder is admissible solely on the issue of whether or not the accused actually
formed a required specific intent, premeditated, deliberated or harbored malice
aforethought when a specific intent crime is charged. The defendant's tendency to make
things look worse when he spoke to his mother to get her attention is not relevant to the
defendant's actually forming the required specific intent for the charged crimes.
"So my view it is excluded by sections 25, 28 and 29 of the Penal Code."
The standard of review for evidentiary rulings on relevance and character evidence
is abuse of discretion. (People v. Fuiava (2012) 53 Cal.4th 622, 667-668 [relevance];
People v. Doolin (2009) 45 Cal.4th 390,437 [Evid. Code,§ 1102].) "A trial court abuses
its discretion when its r1:1ling' "fall[s] 'outside the bounds of reason.'"' [Citation.]"
(People v. Benavides (2005) 35 Cal.4th 69, 88.) The same stringent standard applies to
excluding evidence pursuant to the Penal Code sections cited by the trial court.
(People v. San Nicolas (2004) 34 Cal.4th 614, 661-663; People v. Cortes (2011)
192 Cal.App.4th 873, 909, 912.)
However, defendant attacks the exclusionary ruling only insofar as it was based on
Evidence Code section 1102. In other words, defendant does not challenge the other
grounds for the ruling.
The most elemental principle of appellate review is that trial court error is never
presumed, but must be demonstrated by the appellant. (E.g., People v. Giordano (2007)
17

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 159 of 251

42 Cal.4th 644, 666.) Almost as fundamental is the principle that" ' "a ruling or
decision, itself correct in law, will not be disturbed on appeal merely because given for
the wrong reason. If right upon any theory of the law applicable to the case, it must be
sustained regardless of the considerations which may have moved the trial court to its
conclusion."'" (People v. Brown (2004) 33 Cal.4th 892, 901.) Thus, the other grounds
given by the court, which do not evoke challenge by ~efendant, are deemed sufficient for
the ruling. (See Western States Petroleum Assn. v. Board ofEqualization (2013)
57 Cal.4th 401,409; 9 Witkin, Cal. Procedure (5th ed. 2008) Appeal,§ 355,
pp. 409-410.)
Defendant attempts to give his argument a constitutional dimension by asserting
the ruling infringed "his constitutional due process right to present a complete defense ...
and his constitutional right to compulsory process." This attempt to elevate the status of
the claimed error will not prevail.
·"'Asa general matter, the "[a]pplication of the ordinary rules of evidence ... does
not impermissibly infringe on a defendant's right to present a defense." [Citations.]
Although completely excluding evidence of an accused's defense theoretically could rise
to this level, excluding defense evidence on a minor or subsidiary point does not impair
an accused's due process right to present a defense. [Citation.] If the trial court
misstepped, "[t]he trial court's ruling was an error of law merely; there was no refusal to
allow (defendant] to present a defense, but only a rejection of some evidence concerning
the defense." [Citation.]" (People v. Boyette (2002) 29 Cal.4th 381, 427-428.)
The ruling did not impair defendant's right to present a defense_. Defendant
himself could testify to hfs fantasist tendencies in conversing with his mother. (People v.

Gerule (2002) 28 Cal.4th 557, 605 ["Defendant was free to present this information by
taking the stand himself."].) That, together with counsel's closing argument, could serve
to acquaint the jury with the defense theory that defendant did not commit the charged
offense. (See People v. Whisenhunt (2008) 44 Cal.4th 174, 213 ["Through defendant's
testimony and defense counsel's closing argument, the jury was fully apprised of the
defense theories"].) Thus, "the trial court merely rejected some evidenc~ concerning a
18

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 160 of 251

defense, and did not preclude defendant from presenting a defense." (People v: McNeal
(2009) 46 Cal.4th 1183, 1203.) The excluded evidence was "defense evidence on a
minor or subsidiary point." (People v. Boyette, supra, at p. 428.) Yes, it can be seen as
involving defendant's credibility, but only in the sense of collaterally impeaching a single
statement. Excluding one source of that impeachment did not undermine the
prosecution's case against defendant.
Lastly the "right to present a complete defense" principle invoked by defendant
appears limited to capital cases. (See People v. Hornick (2012) 55 Cal.4th 816, 855;
People v. Rogers, supra, 39 Cal.4th 826, 872 & fn. 18.) That is not implicated here.

In light of the foregoing, defendant has not established that granting the
prosecution's in limine motion amounted to a clear abuse of discretion. (People v.
Fuiava, supra, 53 Cal.4th 622, 667-668; People v. Benavides, supra, 35 Cal.4th 69, 88.)
The Challenged Murder Convictions
Will Be Allowed To Stand

Under this caption in his brief, "two of appellant's four convictions of murder must
be reversed because the evidence fails to show that appellant perpetrated, aided and
abetted, or conspired to commit them," defendant argues: "Appellant was tried and
convicted of murder 'in counts one, seven, eight, and nine. The prosecution presented
evidence to show that appellant fired the shots that killed Antonio Cintron in count one
and evidence to show that appellant drove the getaway car from the shooting that killed
Luis Perez in count seven. However, the prosecution presented no evidence to show that
appellant had any responsibility for the shooting deaths of Lisa Thayer in count eight or
Rico McIntosh in count nine."
It is significant that defendant does not challenge his conviction for conspiracy
(count four), because it is that peculiar creatme, the law of conspiracy, which defeats
defendant's attempt to overturn the two murder convictions. Defendant, on the other
hand, has only naked logic on this side. After all, he maintains: "I was in the county jail,
I did not provide the gun(s} or any other instrumentality used in the murders, and I gave
no direct orders for the murders."
19

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 161 of 251

The law on this issue may continue to be controversial, but it is settled.
"Since conspiracy is a continuing offense [citation], a defendant who has joined a
conspiracy continues to violate the law 'through every moment of [the conspiracy's]
existence,' [citation], and he becomes responsible for the acts of his co-conspirators in
pursuit of their co1mnon plot." (Smith v. United States (2013) 568 U.S. _ , _ [133 S.Ct.
714, 719].) This court made the same point three decades ago: "Once the conspiracy is
established it is not necessary to prove that each conspirator personally participated in
each ... [act of the conspiracy] ... since members of the conspiracy are bound by all acts
of all members committed in furtherance of the conspiracy." (People v. Cooks (1983)
141 Cal.App.3d 224, 312; see People v. Kauffman (1907) 152 Cal. 331, 334 [" 'In
contemplation of law the act of one is the act of all. Each is responsible for everything
done by his confederates' "].)
We continued: "The crime of conspiracy can be committed whether the
conspirators fully comprehended its scope, whether they acted together or in separate
groups, or whether they used the same or different means lmown or unlmown to them."
(People v. Cooks, supra, 141 Cal.App.3d 224, 312.) One ofthe authorities cited for this
principle was our decision in People v. Means (1960) 179 Cal.App.2d 72, 80, where we
stated: "[T]here need be no showing of direct association between members of a
conspiracy. Common design is the essence of a conspiracy and the crime can be
committed whether the parties comprehend its entire scope, or whether they act in
separate groups or together, by the same or different means known or unlmown to them,
if their actions are consistently leading to the same unlawful result .... "
And, strikingly applicable here, we further stated in 1983: "Once the defendant's
participation in the conspiracy is shown, it will be presumed to continue unless he is able
to prove, as a matter of defense, that he effectively withdrew from the conspiracy.
[Citation.] [~] Although a defendant's arrest and incarceration may terminate his
participation in an alleged conspiracy, his arrest does not terminate, or constitute a
withdrawal from the conspiracy as a matter of law. [Citations.] Withdrawal from, or

20

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 162 of 251

termination of, a conspiracy is a question of fact." (People v. Cooks, supra,
141 Cal.App.3d 224, 316.}
"'Each member of the conspiracy is liable for the acts of any of the others in
carrying out the common purpose, i.e., all acts within the reasonable and probable
consequences of the common unlawfu l design.'" (People v. Flores (2005)
129 Cal.App.4th 174, 182, quoting what is now 1 Witkin & Epstdn, Cal. Criminal Law
(4th ed. 2012) Elements, § 98, p. 404.) And, in the classic formulation by our Supreme
Court: "whether or not the act committed was the ordinary and probable effect of the
common design or whether it was a fresh and independent product of the mind of one of
the conspirators, outside of, or foreign to, the common design, is a question of fact for the
jury [citations], and if there be any evidence to support the finding of the jury on this
question, its determination is conclusive." (People v. Kauffman, supra, 152 Cal. 331,
335.) This is part of the jury's power "considering the unique circumstances and the
nature and purpose of the conspiracy of each case-to determine precisely when the
conspiracy has ended." (People v. Saling (1972) 7 Cal.3d 844, 852.)
From these authorities it should be clear that defendant's incarceration and lack of
direct communication to the killers of Thayer and McIntosh is not legally dispositive.
Neither his actual presence nor his direct participation was required for liability.
Defendant does not dispute his membership in a criminal street gang. He does not
dispute the existence of the conspiracy, or that he was properly convicted of that
substantive offense. He does not contend he ever withdrew from that conspiracy. He is
thus liable for the Thayer and McIntosh murders committed after his incarceration, if they
can be deemed the "ordinary and probable effect[s]" (People v. Kauffman, supra,
152 Cal. 331,335), the" 'reasonable and probable consequences'" (People v. Flores,

supra, 129 Cal.App.4th 174, 182) of the conspiracy.
This is where defendant makes his stand: he argues that he cannot be convicted of
the Thayer and McIntosh killings because, adopting another Supreme Court phrasing,
"those two killings were not the natural and probable consequences of any conspiracy
[see People v. Prieto (2003) 30 Cal.4th 226, 250] entered into by appellant. ...
21

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 163 of 251

[N]othing about appellant's expressed intention suggested that appellant and other gang
members conspired that they would aggressively hunt for Nortefios and anyone who
resembled Nortefios and kill them at every opportunity for an indefinite period of time
into the future .... No evidence was presented to show that appellant aided, facilitated,
or encouraged either of the killings in counts eight and nine. It would be unreasonable to
expand conspiracy theory liability to cover murders committed after a conspirator is in
custody when there is no clear link between the conspirator and the killing. Thus the
shooting deaths of Thayer and McIntosh could not be the natural and probable
consequences of any conspiracy involving appellant." We do not agree.
Insofar as defendant is relying on his status as a prisoner in the county jail, it has
been shown that the fact of his incarceration does not terminate his potential criminal
liability as a matter of law. In any event, it would be inaccurate to picture defendant as
sitting silently in his cell, with no contact with his VFL colleagues. The jury heard
evidence of recorded phone conversations that defendant made to the gang's current
leader. The leader promised to send money to defendant while he was in jail, and to take
care of defendant's mother. The leader also provided information of the latest
developments concerning other gang members, and gave defendant messages to pass on
to other gang members in the jail. Most crucially, he gave orders to defendant and made it
clear defendant was still under gang discipline. The jury also heard testimony from a jail
guard that defendant appeared to be associating and socializing with the other Surefios
inmates. 2 From this evidence the jury could conclude that defendant never withdrew
from the conspiracy but remained an active part of it.
Defendant's emphasis on the lack of a "clear link" between himself in jail and
other gang members is also misplaced, for it erroneously assumes that a direct connection
and correlation is required. (People v. Means, supra, 179 Cal.App.2d 72, 80.) It is also
2

Not all of the information heard atthe competency hearing about defendant's
behavior and activity in jail was reintroduced at his trial. Parenthetically, it may be
pertinent to note that the competency determination was made by retired Judge Peter
Spinetta, while Judge John W. Kennedy presided at defendant's trial.
22

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 164 of 251

contrary to the presumption that defendant remained a member of the conspiracy.

(People v. Cooks, supra, 141 Cal.App.3d 224, 316.)
Defendant's assumption is also at odds with the nature of conspiracies. " '[I]t was
not necessary for the State to prove that the parties actually came together, mutually
discussed their common design, and after reaching a formal agreement set out upon their
previously agreed course of conduct.' " (Lorenson v. Superior Court ( 19 50) 3 5 Cal.2d
49, 57.) "It is seldom possible for the prosecution to offer direct evidence of an
agreement to commit a crime. The agreement to commit the crime is usually made in
secrecy. The conspiracy must be inferred by the trier of fact from all the circumstances"

(People v. Chavez (1962) 208 Cal.App.2d 248, 253 ), which here would include the
"common gang membership ... 'the conduct [of the conspirators] in mutually canying
out a common illegal purpose, the nature of the act, the relationship of the parties [and]
the interests of the alleged conspirators . ... '" (People v. Superior Court (Quinteros)
(1993) 13 Cal.App.4th 12, 20-21.)
The jury heard more than ample evidenc~ that the VFL. and ML Surefio gangs had
a systematic practice of hunting down and trying to kill rival Nortefio gang members and
suspected members. The killings were accomplished in the same manner-on the streets,
using handguns. Defendant participated in that campaign of killing before he was
arrested. Thus, the jury had a basis for treating subsequent Nortefio killings as the natural
and probable consequences of the conspiracy, and for treating defendant, even after he
was incarcerated, as still a member of the on-going conspiracy. (People v. Zamudio,

supra, 43 Cal.4th 327, 357; People v. Kauffman, supra, 152 Cal. 331, 335; People v.
Flores, supra, 129 Cal.App.4th 174, 182; People v. Cooks, supra, 141 Cal.App.3d 224,
316.)

DISPOSITION
The judgment of conviction is affinned.

23

Case 3:16-cv-00207-JST Document 14-11 Filed 06/15/16 Page 165 of 251

Richman, J.

We concur:

Kline, P.J.

Haerle, J.

24

